<html>
<title> - THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF THE NATIONAL NUCLEAR SECURITY ADMINISTRATION ACT OF 2000</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-11]
 
   THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF THE NATIONAL NUCLEAR 
                  SECURITY ADMINISTRATION ACT OF 2000 

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 31, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     U.S. GOVERNMENT PRINTING OFFICE

37-309 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                                     
  








































                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
RICK LARSEN, Washington              TRENT FRANKS, Arizona
JIM COOPER, Tennessee                MAC THORNBERRY, Texas
HANK JOHNSON, Georgia                MICHAEL TURNER, Ohio
DAVID LOEBSACK, Iowa                 MIKE ROGERS, Alabama
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Jason Hagadorn, Staff Assistant






































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, January 31, 2007, The Department of Energy's 
  Implementation of the National Nuclear Security Administration 
  Act of 2000....................................................     1

Appendix:

Wednesday, January 31, 2007......................................    31
                              ----------                              

                      WEDNESDAY, JANUARY 31, 2007
   THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF THE NATIONAL NUCLEAR 
                  SECURITY ADMINISTRATION ACT OF 2000
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     4
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Aloise, Gene, Director, Natural Resources and Environment 
  Division, U.S. Government Accountability Office accompanied by 
  James Noel, Assistant Director of GAO..........................    22
Bodman, Hon. Samuel W., Secretary of Energy, Department of Energy     5

                                APPENDIX

Prepared Statements:

    Aloise, Gene.................................................    43
    Bodman, Hon. Samuel W........................................    35

Documents Submitted for the Record:

    Letter from Los Alamos, National Security LLC, submitted by 
      Hon. Samuel W. Bodman......................................    61

Questions and Answers Submitted for the Record:

    Mr. Johnson..................................................    75
    Mr. Rogers...................................................    74
    Ms. Tauscher.................................................    67
   THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF THE NATIONAL NUCLEAR 
                  SECURITY ADMINISTRATION ACT OF 2000

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                       Washington, DC, Wednesday, January 31, 2007.
    The subcommittee met, pursuant to call, at 1:15 p.m., in 
room 2226, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon. This hearing of the House 
Armed Services Committee, Strategic Forces Subcommittee, on the 
Department of Energy's (DOE) implementation of the National 
Nuclear Security Administration (NNSA) Act will now come to 
order.
    Let me begin by welcoming our distinguished witnesses: 
Honorable Samuel W. Bodman, Secretary of Energy, and Mr. Gene 
Aloise, Director of the Government Accountability Office's 
(GAO) National Resources and Environment Division.
    The hearing will consist of two panels today, with the 
secretary appearing alone on the first. Mr. Aloise will be 
joined on the second panel by James Noel, Assistant Director of 
GAO and a principal author of the report that we are releasing 
today.
    Let me thank each of you for appearing before the 
subcommittee today.
    This is our subcommittee's first hearing in the 110th 
Congress and my first as chairman of the subcommittee, so let 
me lay out a couple of ground rules.
    First, as Chairman Skelton instructed at our full committee 
organizational meeting, we will honor and enforce the five-
minute rule so that all subcommittee members have a reasonable 
chance to ask questions.
    Mr. Secretary, we will not impose a five-minute rule on 
you.
    Second, I encourage all subcommittee members to be 
respectful of our witnesses and, in turn, our witnesses to be 
respectful of the subcommittee members, especially our limited 
time during hearings. We will all be grateful if you can keep 
your answers as concise as possible while answering the 
question.
    Now let's get started.
    Today's hearing is not being held because of recent 
leadership changes at the NNSA, nor is it being held because of 
the latest Los Alamos National Laboratory (LANL) security 
breach. Those issues are relevant but not the motivation for 
today's hearing, which is a compilation of a long-awaited 
report from the GAO on the department's progress in 
establishing the NNSA, a matter of longstanding and significant 
interest to this subcommittee.
    In October 2004, my distinguished predecessor, Chairman 
Terry Everett, and Ranking Member Silvestre Reyes asked the GAO 
to conduct a comprehensive survey of the department's progress 
in implementing the fiscal year 2000 NNSA Act.
    Specifically, the subcommittee asked GAO to evaluate the 
extent to which NNSA had taken steps to, one, improve security 
at its laboratories and plants and, two, improve its management 
practices and revive its organizational structure.
    After a lengthy investigation, the report is complete. And 
I want to compliment the GAO on what I believe to be a 
constructive and illuminating assessment. My colleague, Mr. 
Thornberry, and I helped draft the provision in the National 
Defense Authorization Act (NDAA) for Fiscal Year 2000, which 
created the National Nuclear Security Administration.
    This committee's and, indeed, Congress's objective in 
establishing the NNSA was simple: to address chronic, well-
documented problems with security and management within the 
Department of Energy's nuclear weapons complex.
    Congress took action in response to well-publicized 
espionage charges, decades of documented mismanagement at DOE, 
and dozens of reports and studies that describe weak 
management, confused lines of authority and a lack of mission 
focus within DOE military nuclear programs.
    Heeding the advice of dozens of experts who had studied 
these problems--this is some of the paper, by the way, produced 
by the dozens of different experts and boards and commissions 
and Presidential advisory committees, including the most recent 
1994 report by the President's Foreign Intelligence Advisory 
Board, known as PFIAB--we approved the creation of a semi-
autonomous agency within DOE.
    The rationale for semi-autonomous was to insulate the new 
agency from a culture within DOE that had undermined security 
and management in the weapons complex, but also preserve for 
the secretary of energy ultimate authority for policy. 
Immediately after passage of the NNSA Act, this committee began 
aggressive oversight of implementation of the act.
    The committee established a special oversight panel on DOE 
reorganization, on which I served as the ranking member. That 
panel issued two reports in February and October of 2000, 
assessing initial DOE efforts, and held hearings throughout the 
106th and 107th Congresses.
    We have modified the NNSA Act several times. Amendments to 
the original statute were included in the fiscal year 2001, 
2005 and 2007 National Defense Authorization Acts. Finally, in 
2004, we asked for the GAO report, which we are discussing 
today. So we have been active.
    Like GAO, we see progress in some areas. But as GAO has 
found in this latest investigation, seven years after the NNSA 
Act was created, we still face many of the same problems that 
drove us to create the organization in the first place. These 
range from a lack of human resources, whether among NNSA site 
office security personnel or NNSA headquarters program 
management staff, to difficulties in establishing effective 
budget and project program management processes.
    Mr. Secretary, I have long been concerned about these 
problems, most of which have been raised in other reports, like 
the recent Defense Science Board report or the former NNSA 
oversight panel. I am concerned, because our national labs and 
weapons complex sites need to have effective security 
procedures to protect the sensitive national security secrets 
they guard. And the NNSA must be effectively run if the agency 
is to successfully manage critical challenges it faces, from 
the Reliable Replacement Warhead program, to the effort to 
transform the complex.
    I am supportive of these programs, but I need to have the 
confidence that the NNSA is an effective, competent 
organization, if we are to embark upon these expensive, 
complicated activities. Furthermore, I need confidence that DOE 
is enabling the NNSA to achieve top-notch science and security, 
rather than serving as one big bureaucratic roadblock.
    Frankly, Mr. Secretary, after reading your submitted 
testimony, I am losing that confidence. In your statement, you 
acknowledge that there has been improvements in the management 
of the nuclear weapons complex since the NNSA was established. 
But you also indicate that the NNSA Act ``created a significant 
obstacle to realizing the benefits of functional accountability 
and sound management between the NNSA and the broader 
department.''
    Mr. Secretary, over the seven years since we established 
the NNSA, the evidence is clear. DOE has never afforded the 
NNSA the degree of autonomy Congress intended in the NNSA Act. 
So from where I sit, it is not credible for the department to 
assert that the NNSA Act has not worked because the department 
has not given it a fair chance to work.
    I do want to work with the department to address these 
problems. But the starting point for our partnership is clear: 
DOE must honor the intent of the NNSA Act and grant NNSA the 
authority Congress intended.
    I know you believe in accountability, Mr. Secretary, as do 
I. But I am concerned that you testify that ``certain elements 
of the NNSA Act present obstacles to management's success 
across the weapons complex.'' But you decline to propose 
solutions. That is not accountability, in my judgment, and the 
issues that depend on NNSA require more than that.
    So my bottom line is this. If the department cannot or will 
not faithfully implement the NNSA Act, we will find a way to 
further insulate the NNSA from the department.
    Finally, the subcommittee members and I put together a 
comprehensive set of questions that we will need your help 
with, Mr. Secretary. We will be drafting the fiscal year 2008 
National Defense Authorization Act in the next couple of 
months, and you can be sure we will deal with these issues in 
that bill. So if you could be timely with your responses to our 
questions, it would allow us to factor in your views.
    And with that, I welcome your testimony today.
    Let me now recognize my good friend and colleague, Mr. 
Everett, the ranking member of the subcommittee.
    Mr. Everett.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Well, I want to thank my friend, colleague and 
chairwoman. And I want to join you in welcoming our 
distinguished guests today, our witnesses today, Honorable Sam 
Bodman, Secretary of Energy, and Mr. Gene Aloise and Mr. James 
Noel, both from the Government Accountability Office.
    I would frame my focus at today's hearing by asking two 
questions. First and foremost, why do we continue to have 
problems with basic security at the nuclear weapons complex? 
And, second, is the NNSA Act, which arose out of concerns over 
security in the nuclear weapons complex, performing as 
intended, specifically in the area of how NNSA interacts with 
the Department of Energy?
    For years, this subcommittee has closely followed NNSA, the 
nuclear weapons complex security posture, and its relationship 
with the Department of Energy. The GAO report which is now 
being released today was requested by me and my ranking member, 
Congressman Reyes, when I previously chaired this subcommittee.
    I will also note that the long history of expertise for 
both Chairman Tauscher and Congressman Thornberry of this 
subcommittee, who developed in their leadership of this 
committee's special oversight panel on development--on 
Department of Energy reorganization following the passage of 
Title 32 of fiscal year 2000 National Defense Authorization Act 
that established NNSA.
    Most recently, in last year's defense authorization 
conference with our Senate colleagues, we merged the 
counterintelligence offices of NNSA and the Department of 
Energy, taken due to the concerns with how NNSA and the 
department were implementing the NNSA Act.
    Safeguarding our nation's nuclear weapons design 
information, the underlying rationale for establishing NNSA, is 
critical to our national security. I am perplexed as to why we 
have continued to have significant security problems at Los 
Alamos and perhaps elsewhere in the complex. I will also note 
that the GAO report highlights several areas of management of 
practices which NNSA and, between NNSA and the department, now 
are not functioning smoothly.
    And significantly, I am especially interested in hearing 
the secretary as to whether NNSA can effectively execute the 
national security mission under the existing NNSA Act 
legislation or, alternatively, whether legislation requires 
changes. I will look forward to hearing from our witnesses, and 
we actually need to find out what we need to do to get this 
thing right.
    And I want to thank the Madam Chairman for convening this 
hearing. It is timely, with the release of the GAO report. 
Thank you, Madam Chairman.
    Ms. Tauscher. I thank the distinguished ranking member.
    Apparently we may have been called for another vote. I 
wanted to ask Mr. Thornberry if he had an opening statement.
    Mr. Loebsack, do you have an opening statement?
    Mr. Loebsack. No, I don't. Thank you, Madam Chairman.
    Ms. Tauscher. Mr. Secretary, if you could give me a sense 
for how long it will take for you to summarize your statement, 
perhaps we could go ahead with that, and then we could break 
for a vote.
    Secretary Bodman. Five minutes.
    Ms. Tauscher. Please go ahead. Mr. Secretary, the floor is 
yours. Thank you.

   STATEMENT OF HON. SAMUEL W. BODMAN, SECRETARY OF ENERGY, 
                      DEPARTMENT OF ENERGY

    Secretary Bodman. Madam Chairman, members of the 
subcommittee, I am very pleased to be here before you to 
provide my assessment of Title 32 in the National Nuclear 
Security Administration Act.
    Let me begin by recognizing Chairman Tauscher, Ranking 
Member Everett for the terrific leadership they have shown in 
focusing on this, which you have just talked about. Anybody 
that can work their way through all those documents is my kind 
of person.
    I also want to say that the men and women in the NNSA 
complex are a key national asset. The work that they do is 
critical to our nation's security, defense and scientific 
capabilities, and it is among the most sensitive work performed 
in our government.
    While we grapple with some of the challenges that it 
presents, I continue to be committed to administering the NNSA 
Act as written to the best of my ability. Last July, based on a 
recommendation of the department's inspector general, following 
a security lapse at the Albuquerque service center, I convened 
a task force to review the separate organization of NNSA within 
the department.
    The deputy secretary led the team that included the 
administrator of the NNSA, the undersecretary for science, and 
our general counsel. Task force members identified language 
within the act that prohibited the delegation of authority 
beyond the deputy secretary, as having created a significant 
obstacle to realizing the benefits of functional accountability 
and sound management between the NNSA and the broader 
department.
    After careful consideration of their review, I concluded 
that, while certain elements of the act presented obstacles to 
management success across the weapons complex, we would 
continue to work within the limits and under the guidance of 
that act. It does, however, remain my belief that the creation 
of the NNSA as a separately organized entity within the 
department has not yielded all of the beneficial results that 
the legislation's authors intended.
    Let me add here that my views on these issues are informed 
by experience as deputy secretary in two other Cabinet 
departments, with large, separately organized elements within 
them, both Commerce and Treasury. I am aware that the GAO just 
today has released a report in which it concludes that there 
continue to be serious flaws in the management practices across 
the weapons complex, particularly in the area of security.
    And while I have not yet reviewed that report in any great 
detail, I can say generally that I certainly agree that 
problems persist. There is no doubt about that.
    While we have much more to do, we have made it a top 
priority to improve management within the entire department, 
including the NNSA, and we are making progress, in my judgment, 
toward that goal.
    Madam Chairman, in the past, our partnership has led to 
very constructive changes, with large beneficial impacts on our 
organization. A merger of intelligence and counterintelligence 
functions on a department-wide basis is a good example of that 
type of cooperation, and I very much look forward to working 
with you in the future where similar opportunities arise.
    That concludes my opening remarks, and I ask that the 
written statement that I have prepared be entered into the 
record.
    Ms. Tauscher. Without objection.
    Secretary Bodman. Thank you.
    [The prepared statement of Secretary Bodman can be found in 
the Appendix on page 35.]
    Ms. Tauscher. Let me just ask my colleagues. Apparently we 
have a 15-minute vote on. Shall we go vote and then just come 
right back? Does that work?
    Is that fine with you, Mr. Everett?
    Mr. Everett. Absolutely.
    Ms. Tauscher. Mr. Secretary, I apologize. We will be back 
as quickly as we can. Thank you.
    Secretary Bodman. Thank you.
    [Recess.]
    Ms. Tauscher. Mr. Secretary, thank you, and thank you for 
the witnesses' indulgence. We don't expect to have a vote 
imminently, but why don't we proceed with questions?
    I am just going to yield myself some time to ask you a 
question, and then to proceed on a five-minute rule to the 
other members.
    Mr. Secretary, in your prepared testimony, you state, 
``Over the last six years, an array of security breaches has 
continued to occur in the weapons laboratory complex. These 
incidents call into question whether the arms-length management 
model prescribed by the act is a workable and effective 
management tool.''
    I guess my question effectively is, are you suggesting that 
these incidents would have been avoided if you had been granted 
greater authority over the NNSA?
    Secretary Bodman. No.
    Ms. Tauscher. Well, can----
    Secretary Bodman. I am trying to be responsive to your 
request to be brief.
    Ms. Tauscher. I appreciate that. So let me get it straight. 
If you are not suggesting that if you had gotten more authority 
under the NNSA Act, that these incidents wouldn't have 
occurred. And I sense a very real reluctance on your part to 
implement the act. And you have made it clear that you don't 
think that the act is workable or that it will achieve the 
kinds of things that we intended.
    What exactly, then, are we meant to do, in absence of 
getting compliance on the act by you and the department, what 
are we meant to do to stop these chronic, debilitating, 
embarrassing security breaches?
    Secretary Bodman. Well, first, Madam Chairman, I would say 
to you, I believe we are implementing the act. I have every 
intention of implementing the act and obeying the law. It seems 
to me that is my job, and I am attempting to do it.
    Now, you may not be happy with how I am doing it and may 
have different views as to how I am doing it, but I want you to 
know that, at least in my mind, I am attempting to deal with 
that and trying as hard as I know how to implement that act. 
And I wanted to say that.
    Second, in order to understand the reasons for the 
continuing issues on security, it strikes me that one has to 
look at sort of the root cause of the problem. I think the root 
cause of the problem is the so-called culture at Los Alamos. I 
mean, these issues largely--they are not exclusively, but 
largely have been focused in Los Alamos.
    And the problems of trying to manage a cultural change 
takes--I can tell you, I have done it before. Perhaps you have, 
as well. It takes time. So it is something that I think is--I 
am reasonably comfortable that the current LANL board and the 
organization is going to be effective. I am cautiously 
optimistic, let's say, about that. And I remain hopeful about 
that.
    But it seems to me that is really the issue, is to try to 
manage that laboratory better. And I believe that we have 
implemented the act.
    With all due respect to my friends from GAO, I would tell 
you that they started at, which I had not realized, two years 
ago or more, from I think what Ranking Member Everett said. And 
I think that some of the problems--maybe not all, but many of 
the problems--have been dealt with.
    I do believe we are in better shape, in terms of the day-
to-day management, at least by my definition of it, which is a 
more supportive, cooperative interface between DOE members and 
NNSA members.
    Ms. Tauscher. Mr. Secretary, do you have two or three 
different suggestions of how we can amend the NNSA Act to get 
better compliance and a more effective, organic organization?
    Secretary Bodman. I don't really--I am not recommending any 
changes in the NNSA Act. I think we can make it work. And so 
the idea of going through the--that is one thing I looked at 
when I think I mentioned that. We had a committee internally 
and looked at, you know, are there changes that would make 
sense?
    And I think that this can be made to work. I think we are 
making it work. And that is not to say all the problems are 
dealt with. And I will continue to look at Los Alamos with a 
jaundiced eye.
    My big concerns, frankly, and the act concern the 
multiplicity of, you know, the replication of functions. I have 
two general counsels; I have two congressional offices; I have 
two public affairs offices; I have two senior financial people. 
I guess one isn't really called a Chief Financial Officer 
(CFO), per se, but effectively operates in that fashion. And it 
is----
    Ms. Tauscher. Well, with all due respect, Mr. Secretary, 
you are not meant to have two. One is meant to be in the NNSA, 
and one is meant to be for you. That is the problem, I think.
    Secretary Bodman. Well, the NNSA reports to me, I believe, 
and therefore, in that sense, I have two. And so that is how I 
think of it.
    Ms. Tauscher. Well, maybe that is a culture issue we can 
work on, too, because I think, to a certain extent, Mr. 
Secretary, this obviously all happened way before your time, 
both this President's time and--this is something that has 
happened over many administrations, Democrat and Republican, 
and many Congresses.
    Secretary Bodman. Right.
    Ms. Tauscher. And part of the problem we had was that we 
had all of these chronicles of embarrassing, debilitating, 
worrisome security breaches, management failures, project 
management lapses, other things, and that we found ourselves 
with recurring suggestions that the weapons complex itself was 
not getting the kind of attention it needed and it needed to 
have its own CFO, its own capabilities resident in that 
organization.
    Secretary Bodman. I understand.
    Ms. Tauscher. And so I think that, you know, our intent was 
to stop what had been this litany of mistakes and problems and 
create this organization. Now we have done that. Now we have 
not only competed the weapons lab contracts, changed out 
directors, closed labs temporarily, had all kinds of other 
things, and we still find ourselves with similar situations.
    And it resonates to me when you say ``culture.'' I 
understand what you are saying. But we cannot allow this to 
continue. The American people need to know that they are not 
only getting the best science, but the best national security, 
in this----
    Secretary Bodman. I couldn't agree more.
    Ms. Tauscher. I agree.
    Secretary Bodman. You and I have the same objectives. I 
have met with the LANL board. I have commissioned the Inspector 
General's (IG) report. I have commissioned two further reports 
that will be completed at the end of next month, at the end of 
February. Ninety days is what I gave them. I started them in 
early December, all geared toward looking at the specifics of 
the security failures at Los Alamos and putting a program in 
place that will have teeth to it and that will work.
    And I would tell you that I am attempting to play a much 
more proactive, aggressive role than my predecessors have, 
frankly of both parties--it is not meant to be a partisan 
matter--that I believe has an opportunity to change the way 
that organization thinks about both security, which is the 
discussion of the day, but also safety matters, which is part 
of what I worry about, as well.
    Ms. Tauscher. Thank you, Mr. Secretary.
    As I said, we have a number of questions for the record 
that we will be giving to you----
    Secretary Bodman. Okay.
    Ms. Tauscher [continuing]. And we would hope that we could 
have a timely response from you.
    I am happy to yield time now to the distinguished ranking 
member, Mr. Everett.
    Mr. Everett. Thank you very much, Madam Chairman.
    Mr. Secretary, I often kind of like just to get right to 
the heart of the matter. Let me read some of your written 
statement.
    On page four of that statement, second line down, ``The 
NNSA Act is unique in that it imposes severe limitations on the 
Secretary of Energy's management authority and, in my view, 
impedes the Secretary's ability to manage the organization 
effectively. For example, the Secretary is prohibited from 
directing subordinate NNSA, Federal or contract personnel or 
authorizing any other than the deputy secretary to exercise 
authority, direction or control over them. This prohibition 
precludes me and my line managers from many logical and 
effective workings with NNSA's deputy administrators, associate 
administrators, or their subordinate employees.''
    Now, if I understood you correctly, you told the chairman 
that you have contemplated no change in the NNSA Act. And my 
question would be, if you believe what is in your written 
statement--well, two things. Number one, explain the written 
statement to me a little further in detail. And, number two, if 
you believe this, then why wouldn't you want some changes?
    Secretary Bodman. Well, first of all, I believe the 
statement. I believe it to be accurate. I believe that the 
problems that we have experienced, the most recent problems 
that we have experienced, are unrelated to that description. 
And it is evident to me that this committee, among others, has 
worked very hard over a long period of time to develop the NNSA 
Act.
    And I have a view that we would be better off without 
aspects of it. They are mentioned there. But I don't think that 
they are really at the heart of the problem. The heart of the 
problem is a cultural issue with Los Alamos, and that is going 
to be there whatever changes we might make.
    And so I have two years left, sir, in this job, and that is 
unless the President changes his mind or you all do, or 
something, and that I would hope that when we are completed 
that there would be a sense that we have made significant 
progress.
    There are two big issues within NNSA that I would just sort 
of--if we step back and sort of look at it. One I think we get 
good credit for. That is, when you look at the Defense Science 
Board, in effect the message that was in that report that I 
received about a year or a year-and-a-half ago, was that we had 
lost the confidence of the Department of Defense in our 
management of the nuclear complex.
    Tom D'Agostino, who is here, took on the assignment of 
being the deputy administrator for defense programs and has 
done--I wish he weren't here--he has done a magnificent job in 
implementing and improvements there. And so we are responding 
to that. That is one big area that was, I think, the challenge.
    The second big area is security within our system, security 
and safety within our system, broadly defined, and at Los 
Alamos in particular. And there we have failed. And I can tell 
you, it now has much more of my personal attention than it did 
before, and we are going to try to be proactive and very 
specific in terms of dealing with it. And I would rather put my 
time and effort, Congressman, into that, rather than in 
worrying about exactly what is involved in changing the NNSA 
Act.
    So it is strictly a matter of trying to put my time where I 
think it can do the most good.
    Mr. Everett. Mr. Secretary, two things. Number one, I spent 
four years as the chairman of the Committee on Investigation 
and Oversight on Veteran's Affairs (VA). And I can tell you, to 
be honest with you, I started to give up that chairmanship 
because of the culture within V.A., of their own little 
kingdoms that these directors of these hospitals had.
    And, frankly, my wife talked me into keeping the 
subcommittee, because we had done a lot of good things. But 
there are a lot of things out there that we did not have the 
resources to get to. So I understand the culture.
    From my personal knowledge, we have been dealing with the 
culture issue on this, though, 10 to 12 years now. And it 
seems, at some point in time, we ought to be making some 
headway. I have often described government as like a huge, huge 
ship floating downstream. And just to make a correction a 
little bit, it takes a mighty force to do it. But after 10 or 
12 years, it would seem to me that we were beginning to make 
some headway or we would be firing a bunch of folks at Los 
Alamos, to put it as blunt as I know how.
    The other thing--and you said that the last incident that 
happened at Los Alamos was not related to some of the things 
that I have read here.
    Secretary Bodman. That is correct, sir. That is correct.
    Mr. Everett. Can you tell me what is related to this, other 
than culture?
    Secretary Bodman. Cost effectiveness of management. I mean, 
you know, from my selfish standpoint, I would be better off 
with NNSA ``as a part of the department'' and operating in that 
fashion and without what I consider, as the chairman would, 
what I consider a duplication of efforts.
    But we have made it work. I mean, it is not that big a 
deal, but I just thought this was an occasion for me to come in 
and address myself to this committee for the first time. And I 
thought it unwise to do it without being honest and tell you 
that I do have some misgivings about the organization.
    But I also think that it is important to say that I don't 
think they are--that these issues are the focus of the problems 
that we are all wrestling with. So we have issues here, and we 
have problems over here, and I don't think they link up.
    Mr. Everett. Madam Chairman, I am not going to, you know, 
take a lot more time. But the thing that concerns all of us, if 
we want to zero in and put a culture in the middle of the 
bull's eye, it seems to me that, after 10 or 12 years, we ought 
to be able to be making some progress on it.
    And I recognize that you haven't been here that long.
    Secretary Bodman. Yes, sir.
    Mr. Everett. But speaking for myself on this committee, 
somehow or the other, we have to get--and I have been to Los 
Alamos a number of times. But we have to get it across down 
there that, you know, we are serious. And if the chairman 
mentioned the place was closed down for six months at one time, 
and I don't know--you take, $300 million or $150 million, I 
don't know which it was, frankly.
    If that doesn't get their attention--and, of course, we 
have a lot of belly-aching from the folks down there, you know, 
because of it. And if that doesn't get their attention, I don't 
know what will.
    Secretary Bodman. Well, I guess if I could just respond to 
you, sir, on that, I thing that I mentioned before, I have met 
with the LANL board. In addition to what we have done, they 
have had their own evaluative team in there to make a 
determination. And I have a letter in here. I would be happy to 
read you the list of issues that they have, that they are 
working on.
    I want to try to, frankly, keep the pressure on them, 
because that is where the first line of defense is. They are 
the ones that are operating this laboratory. They are 
responsible for it. And I think Administrator D'Agostino will 
use the contract, this new contract that we have negotiated, in 
the most effective way possible.
    I do think it is important to remember that they have only 
been there six months. And six months is some time, but when 
you think about changing the culture of an environment, it is 
not a long time.
    They have imposed a mandatory drug testing program for the 
first time in Los Alamos. I expect that we will look at 
expanding that throughout the complex, so that we are starting 
to--and there will be a manual written by our chief information 
officer, in conjunction with the chief information officer, 
working together with the NNSA. The two of them will issue a 
manual that will have very specific requirements that have been 
called out in a directive from the deputy secretary.
    And for the first time, we will have something that will 
be, in effect, a part of the contract with the LANL 
organization. That did not exist before, sir. And so I think 
that we are taking a number of steps and changing the way we 
deal with the organization out there, the formality with which 
we do it, and I believe, hopefully, the effectiveness with 
which we do it.
    Mr. Everett. Madam Chairman, I do have some questions that 
we will come back to about the contract that was recently 
awarded, but in fairness to the other members, I don't have 
enough time.
    Ms. Tauscher. Mr. Everett, do you want to ask the Secretary 
if he is willing to share with us the LANL's director's ladder 
and make it part of the record subsequently?
    Mr. Everett. I would ask that.
    Ms. Tauscher. To the extent that you can?
    Secretary Bodman. Yes, to the extent----
    Ms. Tauscher. To the extent that you can.
    Secretary Bodman [continuing]. That I can, I would be happy 
to read the--I can certainly give you the list of what they--
the organization consists of Bechtel, University of California, 
BWXT, and the Washington Group. The three corporate members are 
new members of the management.
    So, in effect, it really is a significant change. And they 
dispatched members from the parent organizations into Los 
Alamos and the team that evaluated what the problems were.
    And it was embarrassing, frankly. We just haven't done it. 
And so what we are attempting to do is to deal with a lot of 
the issues that they have dealt with and the issues that--this 
has also been looked at by the I.G. There is no shortage of 
expert opinions and more reports, you know, that are----
    Ms. Tauscher. By the pound.
    Secretary Bodman. Yes, and so we have plenty of that. And 
so I think what we are trying to do is to act on it. And we are 
trying to take steps. I don't want to say anything more than 
that, than we are taking steps.
    But if I can make the entire letter available, I will do 
it. And if not, I am sure I can make the list of what their 
summary of--it is seven or eight different points of what they 
found when they looked at the security breach in Los Alamos.
    Mr. Everett. One final parting shot, Madam Chairman. I have 
great confidence in Tom, and I recognize that, probably in the 
six to eight months, he will have this culture thing 
straightened up.
    Thank you, Madam Chairman.
    Ms. Tauscher. I thank the distinguished ranking member.
    I am now happy to yield five minutes to the gentleman from 
Texas, Mr. Thornberry.
    Mr. Thornberry. Thank you, Madam Chair.
    Mr. Secretary, I appreciate you being with us today. I am 
going to have to continue a little bit along the same line, 
because I do think, from passage of the NNSA Act until today, 
we have talked a lot, rightfully so, about the culture of the 
complex, not just Los Alamos, especially Los Alamos, but 
throughout the complex.
    And yet I guess part of what is worrying me today may be 
the culture within the Department of Energy. For example, when 
I read from the Defense Science Board report from January 2006, 
a year ago, they said that, you know, one option is to have the 
Secretary of Energy enforce the requirement that the 
Administrator be autonomous and accountable, but it had little 
confidence in the prospect for effective or lasting change 
within the Department of Energy.
    And I don't mean to be nitpicky, but I see in your 
statement, too, where, after this careful review, you decide 
that, after all, you all would continue to comply with the law. 
And I realize it may be a matter of wording, but in your 
statement that is essentially--we would continue to work within 
the limits of the act, like there is another choice.
    And then, when I go through some of the specifics that the 
GAO found--and I don't want to take a lot of time with this--
but, for example, on procurement, it says, ``DOE made a 
commitment to issue NNSA specific acquisition procedures, but 
it has not done so, and, as a matter of fact, the Department 
has blocked NNSA's efforts to issue its own acquisition 
regulations. On information technology, both the DOE and NNSA 
offices of chief information officer cannot reach agreement on 
which office is doing what. NNSA and DOE don't have a formal 
process for obtaining DOE approval of NNSA specific 
procedures.''
    And it says specifically, ``DOE's office of general counsel 
has delayed the development of the process because it believes 
NNSA should be treated like any other part of the Department.'' 
And there are safeguards and security, where it talks about DOE 
and NNSA haven't been able to agree on the formal procedures 
for safeguards and security.
    Bottom line is you go through the specifics and where the 
road blocks are, and helping NNSA be as effective as it can, I 
worry that as much of the problem isn't within the Department 
of Energy as it is within the NNSA itself.
    And I would like to say one other thing, and then obviously 
be very attentive to whatever response you would like to give. 
It was not an easy decision for this committee to agree to the 
merger of intelligence and counterintelligence last year. For 
my part, I supported the change, only because I felt that there 
was a feeling within the department to make the NNSA Act work.
    If, on the other hand, there is a feeling within the 
department to do otherwise, then I am afraid that maybe I have 
made a mistake and that things are headed back the other way. 
And so I just want to share with you, as far as I am concerned, 
I want to work with the department to make this act and this 
complex as effective as possible, because it is so dad-gum 
important.
    If, on the other hand, we are back to turf wars and lawyers 
fighting, you know, I am going to be very discouraged about the 
prospects of doing so. So I would be very interested in your 
thoughts on that.
    Secretary Bodman. I don't know where to start, sir. Let me 
start at the end, talk about the merger of the 
counterintelligence with the intelligence office and between 
NNSA and the department.
    That was, in my judgment, perhaps the most dysfunctional of 
all the organizations, the counterintelligence particularly, 
the counterintelligence office. We had one staff and two sets 
of bosses. And they were having turf warfare all the time about 
who did what to whom. Now, they did finally, I think, a couple 
of fiscal years ago, arrange priorities and set up what they 
would do and how they would do it.
    I did talk to the director of national intelligence about 
the issue. I got advice from him. I got a recommendation from 
him as to a leader. I think, if you were to have your staffs or 
even the committee have a hearing and have a discussion with 
the man who runs that operation right now, he is extremely 
capable and very good. And I am very pleased. I think you would 
be pleased if you were to get a sense of what they are doing, 
how they are doing it.
    You can't do intelligence without counterintelligence, in 
my opinion. You have to have both. And one thing leads to 
another.
    Now, as to the rest of it, I would just try to maybe give 
you a brief response, and I would do more for the record, if 
you would like. But I would tell you that we share the same 
objectives. We are trying to get this right. I believe we have 
made more progress than is indicated, from the little I have 
seen of the GAO report, because I have not read it all. I have 
looked at a summary of it and so forth.
    I have talked to the acting director, and I have talked to 
the former director, the former administrator of the NNSA. And 
in both cases, their responses have been that we have made a 
lot of progress. We are much better than we were.
    The goal here is to try to effectively bridge whatever gaps 
exist between the department and the NNSA. And I believe we 
have made progress on that. It is not a final product yet, but 
I can assure you that David Hill, the general counsel, is not 
attempting to hold up anything. He knows full well the law. He 
is a very capable guy. And he knows that the NNSA is different. 
Everybody knows that within the department.
    And we are attempting to do our best, and I think we are 
having some success. I say that hesitantly, because what we 
have to talk to you about today is not a very encouraging 
story, just what the problems we have had in the Albuquerque 
service office, and then in Los Alamos itself.
    And I lived there every day, and I believe that it is 
better. I believe we are getting more effective cooperation. I 
have delegated specifically to the deputy secretary, to Clay 
Sell, the job of meeting every week with the full--he joins in 
with the leadership group when they meet every week. And so he 
devotes a couple of hours per week to that endeavor, to try to 
establish better relationships. And I think he has accomplished 
that.
    And it is he that reports back to me as to where and what 
he believes is going on. And I think we have improved.
    Mr. Thornberry. Madam Chairman, I am sorry I got carried 
away, and I went on beyond my time.
    Ms. Tauscher. No problem.
    Mr. Loebsack, for five minutes.
    Mr. Loebsack. Okay. Thank you, Madam Chair.
    And thank you, Mr. Secretary, for being here today.
    As a new member of the Congress and as a new member of this 
committee and this subcommittee, I would just like you to 
enlighten me a little bit as to, what specifically are we 
talking about when we talk about the culture? I mean, you know, 
we can talk about government bureaucracies, all of them wanting 
to maybe have their own little kingdoms, as was already 
mentioned.
    But what specifically about Los Alamos and about, you know, 
sort of the agencies, whatever, that we are talking about here, 
what specific elements of the culture are we talking about? 
Because it is not the same as Health and Human Services, for 
example, or whatever.
    Secretary Bodman. Arrogance. Arrogance of the chemists and 
physicists and engineers who work at Los Alamos. They think 
they are above it all and that this is not an important part of 
what they do. It has been that way for a long time. And it is 
that, in my judgment, that is the issue.
    Mr. Loebsack. Do they believe that they can deal with the 
security issues on their own? Is that the case, the safety 
issues on their own, or they just don't want to be policed, or 
what it is, or supervised or whatever?
    Secretary Bodman. Well, they don't want to be policed. I 
think that is fair. They have a view that they are kind of 
above it, you know, that they are doing--you have to 
understand, in dealing with a world-class physicist, you know, 
that is the most important thing in the world to that person, 
is physics, and that is what they do, and that is their focus.
    They worry less about--it is not that they are trying to, 
to my judgment, in general. This woman was willfully breaking 
the law, in my judgment. But in general there is an attitude 
that is there that has to be changed. And I think it is going 
to get changed. And the only way to change it that I know of is 
to be much more specific and much more strict. And we are going 
to do that.
    And the oversight office that is in Los Alamos, that 
reports to Mr. D'Agostino, is likewise--we have had a change in 
leadership there. And I think you will find that there is going 
to be a much more strict interpretation of exactly what the 
requirements are, being more specific and being strict with it.
    Mr. Loebsack. Well, and related to that, I suppose, in some 
ways, on page seven--and this is getting I think what Mr. 
Thornberry was talking about, to some extent--you know, your 
concerns about authority, you know, you coming from the private 
sector, where obviously things might operate a little bit 
differently than the public sector, and you state here on page 
seven some of the concerns about harmonizing the workings of 
the separate elements, includes the authority to delegate 
necessary authority to subordinates of his or her own 
selection, your own selection, right, because the secretary or 
chief executive cannot do it all alone in a complex 
organization.
    How have things changed since you have been in office then? 
And you seem to be very concerned that, perhaps, what you would 
like to see hasn't been the case up to this point.
    Secretary Bodman. Well, it hasn't been, but, by the same 
token, as I have already stated, sir, you know, I think it can 
work. And I think we can make it work, and we are doing our 
level best to make it work.
    The challenge is largely one of having these duplicative--
what I think of as duplicative activities. And there is a 
built-in natural resistance of one to the other. It is just 
that is human nature. That is the way people are, and that is 
why the department secretary and is working assiduously on 
this, is to try to break that down.
    We also have a meeting with all of the leadership of the 
entire department every week, every Monday morning for an hour, 
from 8:30 to 9:30. Everybody, both sides, that is to say that 
NNSA people and the Department of Energy people. It is funny 
when you meet with people and you get to know them, sometimes 
things work a little better. And it surprised me that that 
apparently had not been the practice in the past, but it is 
now.
    And so I think there is an improving relationship.
    Mr. Loebsack. Any other things that you have been doing, 
besides having these meetings, once a week for an hour, to try 
to break down those barriers?
    Secretary Bodman. The deputy is also devoting a significant 
part of his time working with the NNSA. You know, I think it 
is--in effect, no, but we do talk pretty--as I have talked and 
addressed employee groups, the Department of Energy is the most 
Balkanized, stove-piped place I have ever seen in my life. And 
we are trying to break that down, and they know it.
    It has also not been a bastion of managerial excellence. 
And we are trying to improve that. And I think we are making 
some progress. I am not here to tell you that we have solved 
all the problems, but I think we are making some progress on 
both fronts.
    Mr. Loebsack. Okay. Thank you.
    I yield back my time.
    Ms. Tauscher. The gentleman's time has expired.
    Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chairman.
    Secretary Bodman, thanks for coming this afternoon.
    Secretary Bodman. Yes, sir.
    Mr. Larsen. Chairwoman Tauscher's first question to you 
elicited a one-word response--I think it was ``no''--and that 
is, would these problems have happened if you had been there? 
And the answer was no.
    And I think the impetus for that question was based on your 
testimony, which was sort of kind of ``I love you, I hate you'' 
kind of testimony, and it started off my saying that you want 
to work--and you want to keep things working. And then you go 
through this laundry list of all these bad things.
    I think it was kind of, as I was reading it, it was kind of 
a backhanded compliment, a little bit. It sort of cries for, 
``Well, what would you do to change what is going on?'' And 
that is what Chairwoman Tauscher's question was about.
    So I want to ask it a little differently, if I could, with 
regards to the security side of things. And this is, basically, 
in your testimony, what gives you confidence that greater 
secretarial authority over NNSA would solve these problems. Not 
to say that you, that it wouldn't have happened if you were 
there or weren't there, but what gives you confidence that 
greater secretarial authority over NNSA would solve these 
problems?
    Secretary Bodman. Let me correct, at least, what I think is 
a correction of the question, that I felt I answered, that 
Chairman Tauscher asked, and that was--it was not a matter of 
my personally being there. It was a matter of, if we made the 
changes that I had talked about or the concerns that I 
expressed, and if we were to have fixed those in a change of 
the act, would that have changed the events at Los Alamos? And 
my answer to that was no.
    It wasn't a matter of my personal presence, just so that 
that is clear. You know, I don't know how to answer your 
question other than by saying, you know, there are--this 
department is very stove-piped. Everything operates by itself, 
in and of--whether that has been there for 30 years or not, I 
don't know, but it is the most Balkanized, stove-piped place I 
have ever seen.
    And it has been very difficult to break down and get people 
to work with one another. It has been a major challenge. That 
has been the major thing that we have attempted to do, and we 
have tried to do it in a number of different ways, by 
exercising leadership, by allocating resources, by picking 
people that can do that sort of work.
    That is where the core of this is, I believe, because it is 
going to be by bringing competence, knowledge, and a 
cooperative attitude of working with an organization that we 
hopefully can make progress. But other than that, there is no 
magic bullet. And it is not going to be done by changing the 
NNSA Act, in my opinion.
    Mr. Larsen. I perhaps have missed it. Have you yet sought 
out a replacement for Ambassador Brooks?
    Secretary Bodman. We have interviewed a number of people. 
And we are in the process of working our way through that. We 
have not yet identified an individual.
    Mr. Larsen. It just seems to me as, looking back on the 
history of this and certainly the history of the act, that the 
clear intent of Congress was to keep NNSA semi-autonomous. And, 
as a result, I think that the person you come up with, we would 
probably prefer that person have that same kind of view toward 
NNSA, as well. Is that something that you would agree with?
    Secretary Bodman. I would agree with it, but as long as 
there is an attitude of trying to work, you know, 
cooperatively. It is not a matter of trying to run it--I think, 
you know, it is not--let me give you a good example.
    A good example is Naval Reactors. Naval Reactors is also a 
part of the NNSA. They are extremely competent. They are so 
competent, I don't have to spend any time worrying about them, 
because they operate on their own. And I have been invited to 
go do different things of a fun nature, and I frankly haven't 
had the time to do that. And so I haven't.
    And so I have not spent a lot of time with them, but they 
are very, very autonomous and operate without much involvement 
at all with this department. This department is one department, 
and it is important to understand that. I guess that is a point 
I would make.
    The science office of, when you look at the three weapons 
laboratories, 20 percent of the budget in each of those 
laboratories comes from the science department of the 
department. They are very important.
    The environmental management activity of our department, 
which is also, if you will, a civilian part--it is a non-
weapons part of what we do--that also has direct overlap and 
works very closely with it. It is quite interesting. The first 
supercomputer that was developed was not developed in the 
science office, although it has now been exercised and worked 
there. It came out of Sandia.
    And Sandia Laboratory built the first--I know you call it 
Red Storm. It was the first supercomputer. And so that is now 
the basis of what we put at Oak Ridge.
    And so, if we were to separate this to the extent that 
Naval Reactors is separated, we would lose the synergies. We 
would lose a lot of very positive things that have occurred.
    And I guess the last thing I would say--again, forgive me, 
Madam Chairman, but this is important that I try to deliver 
this--the Energy Policy Act of 2005 elevated for the first 
time--we have an Under Secretary of Science, Raymond Orbach. He 
is terrific. He is a very capable man. He is my personal 
science adviser.
    And so he works very closely in helping evaluate--he was 
the one that did the evaluation on the National Ignition 
Facility, the NIF, so called, out in Lawrence Livermore. He did 
the work on that and convinced me that this was a good thing 
and that they knew what they were doing and they were on top of 
it. I think that was a good decision.
    So he also works with me--every spring, I have to write a 
letter to the President of the United States certifying that 
if, God forbid, we need to use a nuclear weapon, it will work. 
And he works with me to evaluate that.
    So it really is an integrated department and that, to the 
extent one were to separate it out and create autonomy, on the 
one hand, you lose the kind of cooperative, supportive 
environment that I believe exists and has been extremely 
effective.
    Ms. Tauscher. The gentleman's time has expired. Thank you, 
Mr. Larsen.
    Mr. Larsen. Sorry.
    Ms. Tauscher. Mr. Spratt, for five minutes.
    Mr. Spratt. Mr. Secretary, thank you for your testimony. 
Let me slip to slightly a different subject.
    Secretary Bodman. Yes, sir.
    Mr. Spratt. Mixed Oxide (MOX) fuel fabrication has been a 
bone of contention for eight or nine years now. Its cost, the 
necessity of it, or its desirability, vis-a-vis other forms of 
disposal, such as immobilization, whether or not the Russian 
counterpart on the parallel track would ever come about, all of 
these things have been swirling around in the argument. And 
those arguments almost killed the program here in the House.
    The Continuing Resolution (CR) on the floor today does 
provide some carryover money--$220 million, if I am not 
mistaken, which is last year, 2006 funding--but it fences that 
money until August the 1st. When I last saw the language, it 
required DOE to come forward with a justification of the whole 
plutonium disposition program, not just the 34 metric tons in 
MOX, but everything.
    That language may have been dropped, but the fence until 
August 1st is still there. And the purpose obviously--and 
particularly from the Energy and Water Committee on our side--
is to have time for them to deny the funding for 2008, so that 
it would make the use of the funds in 2007 futile.
    The department has to come forward and make a strong, 
emphatic case for MOX fuel and for your whole plutonium 
disposition project, if it is going to survive and if we are 
going to get out of this year-to-year wrangle over whether it 
is worth doing. Are you prepared to do that?
    Secretary Bodman. Yes, sir.
    Mr. Spratt. You are sold on it? You are satisfied with the 
program?
    Secretary Bodman. Yes, sir. I am satisfied with the 
program, in that we made a commitment to the state of South 
Carolina. One of my predecessors did, and I am here to honor 
it.
    Mr. Spratt. Yes, sir. Well, it is going to take several 
billion dollars, but part of the argument is to recognize that, 
if you don't spend it on MOX, you will have to spend on the 
mobilization, some other form of----
    Secretary Bodman. Well, or, I mean, you know, I am an--you 
have understand, sir, I am an engineer. And therefore, if I had 
my way, probably I wouldn't--this is kind of old-fashioned 
technology, and I would do what the Russians are thinking about 
doing. I would probably use a fast reactor and try to develop 
something. It would then take 20 more years to get that 
developed, and used, and all of that, and I think you would 
then have 20 more years of plutonium around.
    And, therefore, I have concluded that we are better off as 
a country employing the current technology that is available 
and making the oxide of plutonium and using it in a 
conventional reactor. And so we will do whatever we can do, and 
I have made that case, sir, to the chairman of the Energy and 
Water Appropriations Committee more than once.
    Mr. Spratt. It needs to be made one more time, at least, 
sir. [Laughter.]
    Secretary Bodman. Then I will do it again, sir.
    Mr. Spratt. Thank you very much. One concern, though, is 
that the Russians are not on track, that they are not going 
forward with the MOX plant themselves. They would like to build 
a fast neutron reactor. And lots of people have had 
apprehensions about it, because they look upon it as a breeder 
reactor.
    Secretary Bodman. No, I know. And I have talked to Mr. 
Kiriyenko about that subject when he was last here in town. He 
is the head of Rosatom, the atomic energy commission of Russia. 
And I pointed out to him that we were having significant 
funding problems in our Congress related to the MOX program, 
and that we needed to get a commitment from them as to what 
they were going to do and how they were going to do it.
    Mr. Spratt. You think that is going to be forthcoming?
    Secretary Bodman. I don't know, to be honest with you, sir. 
I can tell you that they have sort of made a halfway effort, 
but it is not strong enough. And we will continue to work that 
issue.
    Mr. Spratt. Thank you very much.
    Secretary Bodman. Yes, sir.
    Ms. Tauscher. Mr. Johnson, for five minutes.
    Mr. Johnson. Madam Chair, I have no questions.
    Ms. Tauscher. Mr. Turner, for five minutes.
    Mr. Turner. Thank you, Madam Chair. I thought we were going 
back and forth, so I appreciate it. You guys sort of had a run 
going over there.
    Ms. Tauscher. We are actually doing by time that you came 
into the hearing.
    Mr. Turner. Thank you.
    Mr. Secretary, in looking at the GAO report and the 
conclusion, the last couple sentences, ``While there have been 
continuing calls for moving NNSA from DOE and establishing it 
as a separate agency, we do not believe that such drastic 
change is necessarily to produce an organization that can 
provide effective oversight of the nation's nuclear weapons 
complex.''
    And then, when you look at page 44, it raises the issue of 
moving NNSA to DOD. Most of the discussion that is in this 
document relates to issues of management and effectiveness and 
control. And you have been addressing that, and I know that a 
lot of the focus has been on improvement and in ways in which 
we can all feel more confident of the efficiency and 
effectiveness there.
    But the item of page 44, move NNSA to DOD, raises an issue 
that I wanted to ask you about that goes beyond issues of 
management. So, for a minute, let's assume that everyone at DOE 
and NNSA is doing everything perfectly well and to the best of 
their ability.
    Secretary Bodman. That is a great leap, sir, but I will be 
happy to assume that.
    Mr. Turner. I thought I would like to take you there for a 
moment.
    Secretary Bodman. Good.
    Mr. Turner. But just for a moment, but once you finally get 
there, you still hit a ceiling. And that is something that I 
have a concern about, in that there is a limitation as to 
NNSA's and DOE's ability to provide security for facilities, a 
limitation that is widely and publicly known, that DOD, in its 
weapons systems and its ability to deploy, it does not have.
    And I discussed with Ambassador Brooks when we toured 
several facilities, and it seems to me that, no matter how well 
you do your job, that because of the ceiling, if you will, of 
what you are able to do within providing security at NNSA, that 
we are still taking a risk that also needs to be addressed.
    I would like your thoughts on that.
    Secretary Bodman. I don't know what conversations you have 
had with Ambassador Brooks. I would tell you that the decision 
was made after the Second World War, I believe, to leave the 
control of nuclear weapons in civilian hands. And it ended up 
in our department, as the way these things go.
    Ms. Tauscher. A wise decision, in many people's opinion.
    Secretary Bodman. And I think it probably is a wise 
decision. But I think, you know, therefore you get faced with 
how much and how far and how high is up. And I think, you know, 
that gets to the design-based threat and the issues related to 
how we protect our nuclear stockpiles and how we protect our 
special nuclear materials at the laboratories.
    And I think we are well along--you know, I think I am quite 
comfortable with where we stand on that front, especially if 
you give the passage of another couple of years, where, at the 
end of 2008, we will be in compliance, I believe. And so I 
think we are going to be--if you have visited, which apparently 
you have, with Ambassador Brooks, you have gotten the sense for 
the kind of security that is there.
    And after 9/11, we upped it, and that has been--I think we 
were looking at a smaller number of people, and now we are 
looking at more people, that would be bad people, and people 
inside the complex, and so forth. So if I got much further, it 
will be classified, but I----
    Mr. Turner. But as to the matter that you have said, and 
the design-based threat, I feel that both the gaps that you 
currently have that you are stretching forward, I think are 
obviously important still.
    But I do think that, to some extent, the design-based 
threat is biased, in that it takes into consideration the 
inherent limitation of your current authority. And even when 
you stretch to meet it, I mean to 2008, that perhaps, if you 
did not have the experience that you currently do, or had 
assistance, interagency assistance, you would have a broader 
stretch.
    So I wanted to raise that issue with you as you think of 
it, because, you know, there is no margin of error here, that--
--
    Secretary Bodman. No, no, no, I understand. I understand. I 
will think about it. You know, all I can tell you is that I 
have no compunctions about asking for help if we need help. I 
will tell you that. And so to the extent we need help from 
another department, I know all the phone numbers.
    Mr. Turner. Very good.
    Thank you, Madam Chair.
    Secretary Bodman. Thank you.
    Ms. Tauscher. The gentleman yields back.
    Mr. Everett.
    Mr. Everett. Thank you, Madam Chairman.
    I just want to briefly make a comment here. You mentioned 
the Naval Reactor program as a model.
    Secretary Bodman. Yes, sir.
    Mr. Everett. We need to remember that is basically a 
military culture there.
    Secretary Bodman. Yes, sir.
    Mr. Everett. That is very much unlike what we see at Los 
Alamos. As I understand, and there is discipline imposed there 
if you don't strictly follow the rules. Now, I understand that 
the chain of command goes roughly from DOE and NNSA down to the 
focus, those who are running the laboratories.
    Now, there is a contract there of where they can receive 
about $70 million a year to run that----
    Secretary Bodman. Seventy million.
    Mr. Everett. And I think that it is about $30 million of 
that that is very baseline stuff. So there is $40 million that 
can be awarded, or in the neighborhood of $40 million, for 
doing things right, you know.
    Secretary Bodman. Yes, sir.
    Mr. Everett. And we need some accountability all the way 
down the line.
    And, Madam Chairman, that is all I have to say about that. 
And no response.
    Ms. Tauscher. I appreciate your comments.
    Mr. Thornberry, do you have another question?
    Mr. Secretary, I want to thank you for being with us today. 
We appreciate the fact that we had a series of votes and we 
delayed you here, and we are very grateful for your 
contributions and for the fact that you were so willing to come 
up and see us.
    Don't be a stranger. We would like to see you again soon. 
And we look forward to working with you to address the critical 
challenges facing the nation's nuclear weapons complex. And 
thank you very much for your service to your country.
    We would like to start the second panel.
    Thank you again, Mr. Secretary.
    Secretary Bodman. Thank you. If I may, Madam Chairman, I do 
have the letter from Los Alamos, which apparently is available, 
and I can----
    Ms. Tauscher. I appreciate that. It will be entered to the 
record.
    Secretary Bodman. Should I give it to you or----
    Ms. Tauscher. Yes, you can give it to the staff, please. 
Thank you.
    Secretary Bodman. Great.
    [The letter referred to can be found in the Appendix on 
page 61.]
    Ms. Tauscher. And we would like to thank Mr. D'Agostino, 
too, for his excellent service and his readiness to always be 
available for us. Thank you.
    Secretary Bodman. Thank you.
    Ms. Tauscher. Thank you, Mr. Secretary.
    If we could have the second panel please come to the table. 
We apologize again for the fact that we had votes, and we 
apparently may have votes in the next half an hour, 40 minutes, 
so we want to show you as much time as we possibly can.
    Mr. Aloise, Mr. Noel.
    Mr. Aloise, you are the Director?
    Mr. Aloise. Yes.
    Ms. Tauscher. And, Mr. Noel, you are the Deputy Director?
    Mr. Noel. Assistant Director.
    Ms. Tauscher. Assistant Director. Is deputy a promotion? 
Because I can make that happen right now. I have the gavel. 
[Laughter.]
    I am ready.
    Mr. Noel. Please, go right ahead.
    Ms. Tauscher. No raise, though, under the C.R.
    Thank you very, very much for your hard work, and thank you 
for being here. You know, I often tell my colleagues and my 
constituents back home that I don't know how we would actually 
get our jobs done if, every few days, we didn't call for a GAO 
study to make sure things get done. And I know how hard you 
work, and I know how diligent you are. And I hope you know how 
much we appreciate the partnership that the Congress has with 
you.
    We have fabulous, fabulous staffs, but not everybody can be 
everywhere at the same time. And you do give us a stand-off 
view of things in much more depth than we are capable of many 
times ourselves. So thank you very much for your service.
    We would like to hear from you briefly, if you might. If 
you could keep your remarks very brief, and then we can get to 
questions. We would appreciate it.
    So, Mr. Aloise.

   STATEMENT OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
  ENVIRONMENT DIVISION, U.S. GOVERNMENT ACCOUNTABILITY OFFICE 
      ACCOMPANIED BY JAMES NOEL, ASSISTANT DIRECTOR OF GAO

    Mr. Aloise. Thank you, Madam Chairman, and thank you for 
those kind remarks.
    Madam Chairman and members of the subcommittee, I am 
pleased to be here today to discuss the actions needed to 
improve the security and management of the nation's nuclear 
programs. In response to serious security and management 
weaknesses at our nation's nuclear weapons labs, the Congress 
in 1999 created a National Nuclear Security Administration as a 
simply organized entity within DOE.
    Since its creation, NNSA has experienced security problems 
and cost and schedule overruns on its major projects. My 
remarks, which are based on a report being released today, will 
address NNSA's actions to improve security and management.
    Producing a well-organized and effective agency out of what 
was considered a dysfunctional enterprise has been a 
considerable challenge. While progress has been made in some 
areas, problems remain, with respect to security, NNSA's 
relationship with DOE, and project, program and financial 
management.
    Regarding security, our analysis of internal and 
independent assessments found continuing weaknesses in physical 
security at several NNSA sites, including the Y-12 National 
Security Complex, Nevada Test Site, and Sandia National Lab .
    Importantly, we also found weaknesses in cybersecurity 
throughout NNSA. According to current and former NNSA 
officials, the cybersecurity program has received inadequate 
attention and was poorly implemented.
    There are, in our view, four factors that have contributed 
to NNSA security problems, and these are: first, until 
recently, NNSA did not have consistent leadership or direction 
at headquarters for its security program; second, since NNSA 
was created, five of six site offices, which have oversight of 
contractor security, including Los Alamos, have not been 
staffed at the required level; third, NNSA has not trained 
security officials in the skills needed for effective security 
oversight; and, fourth, weaknesses in DOE's database for 
tracking security problems prevented NNSA from having complete 
understanding of the overall effectiveness of its security 
program.
    Regarding NNSA's relationship to DOE, we found that, almost 
seven years after its creation, NNSA and DOE still have not 
determined how NNSA should function as a separately organized 
agency within DOE. NNSA has focused considerable attention on 
reorganizing its internal operations, but it and DOE continue 
to struggle with establishing how NNSA should operate within 
the department.
    Several factors have contributed to this situation, 
including the fact that NNSA's January 2000 implementation plan 
did not define how it would operate as a separately organized 
agency within DOE. As a result, some NNSA programs have 
established procedures for interacting with DOE, but others 
have not, and this has resulted in organizational conflict. 
Even where procedures have been developed, interpersonal 
disagreements have hindered effective cooperation.
    Finally, while NNSA has improved its management practices, 
we found several areas where weaknesses remain. Specifically, 
NNSA has not, among other things, implemented a plan for 
improving project management, identified all of its program 
managers and trained them to a certified level of competence, 
and established an independent group to review budget proposals 
and alternatives.
    While there have been continuing calls for removing NNSA 
from DOE and establishing it as a separate agency, we do not 
believe such a drastic move is necessary to produce an agency 
that can provide effective oversight over the nation's nuclear 
weapons programs.
    Our report makes a series of recommendations to the 
Secretary of Energy and the Administrator to improve security 
oversight, clearly define NNSA's status as a separately 
organized agency, and improve its program and project 
management. We believe that implementing our recommendations 
will go a long way toward producing the agency that Congress 
had in mind when it created NNSA.
    Madam Chairman, that concludes my remarks. We would be 
happy to address any questions you may have.
    [The prepared statement of Mr. Aloise can be found in the 
Appendix on page 43.]
    Ms. Tauscher. Thank you very much, sir.
    I am just going to ask you a very brief, to-the-point 
question. The Secretary's testimony, while he acknowledged that 
he found the NNSA Act objectionable in certain aspects, he also 
suggests that recent security breaches demonstrate that the 
NNSA Act has not been fully effective in addressing security 
problems in the weapons complex.
    In your view, has DOE ever granted the NNSA the degree of 
autonomy contained within the NNSA Act?
    Mr. Aloise. In our view, the NNSA Act has really never been 
fully implemented. The agency really hasn't had a chance to be 
what Congress had intended it to be when it created it. So we 
see no reason why the agency can't function as the Congress has 
intended it to.
    Ms. Tauscher. And what do you think has been the primary 
impediment for its reaching its maturity as an agency, over the 
seven years since it has been created?
    Mr. Aloise. One of the main reasons is, for internal 
reasons, they had not yet determined how it should function as 
a separately organized agency. If you look at their 2000 
implementation plan, our staff did a word search on the term 
``separately organized agency,'' and we can't even find those 
words in the implementation plan.
    And that shows the kind of reluctance to fully implement 
the act from the very beginning.
    Ms. Tauscher. From the very beginning, Mr. Thornberry and I 
and other members of this committee that were struggling with 
what to do after a series of significant failures on security 
and other management problems, including project management 
issues, as Mr. Thornberry and I often say--we repeat each other 
sometimes--I often said, ``Here you have the Department of 
Energy that manages and regulates refrigerator coolant that 
also has the nuclear weapons.''
    And for a very long time, the kind of competencies and 
skills to do, you know, a big portfolio of energy management 
policy, science and technology, that also had the nuclear 
weapons, there was something about what happened to the complex 
and it, at the end, got shunted down in this kudzu-laden 
bureaucracy off to the side by an assistant secretary.
    And unless you really were looking at the organization 
chart and paying attention, you almost couldn't find it. And 
our decision was very--we struggled with the decision. And, by 
the way, we didn't have any real support out of Secretary 
Richardson, when he was DOE secretary.
    But, you know, I think our concern is, is that, unless you 
have an administration and a secretary in DOE that is going to 
implement the act and actually understand that we mean it, that 
we are going to continue to have these overarching security 
problems that are debilitating to, not only people's confidence 
in the national security and the science, but doesn't cause us 
to have a sense that we can actually go onto bigger issues that 
we are meant to really deal with, complex issues, complicated 
issues about Reliable Replacement Warhead (RRW), how do we 
reconstitute and reinvest in the complex.
    So if you can't get the basic stuff right, I think we are 
very hesitant and the American people should be concerned as to 
how we go forward. What do you suggest we could do? I mean, the 
Defense Science Board has said, ``Take it all the way out. 
Create a nuclear weapons agency that is completely separate.'' 
That is a recent recommendation.
    Do you see what we could do as Congress to compel the 
secretary to move toward implementation of the act? Or do you 
have other suggestions on what we should be doing?
    Mr. Aloise. Well, one thing, of course, is the oversight 
that you are providing today. And I would agree that if the 
tone is not set at the top in DOE, it filters all the way down 
through the agency. And if the employees in the DOE side see 
reluctance to implement the act, they are going to see that, 
and they respond.
    What our report lays out is a blueprint to fix what we have 
identified as wrong with NNSA, and that turns up being a 
separately organized agency, not really coming to terms with 
what that means, security, and project and program management.
    We do believe, if the Secretary and the Administrator 
implement our recommendations, the agency will get to where it 
needs to be. But having said that, we don't have any illusions 
that it is going to be easy for them to implement our 
recommendations. Although they said they agree with us, the 
proof is in the pudding to see if they will really do that.
    Ms. Tauscher. Thank you.
    Mr. Everett.
    Mr. Everett. Thank you, Madam Chairman.
    Two questions, and somewhat related, although in the 
beginning they may not appear to be so. The Secretary talked a 
lot about culture. And I guess the first question would be, if 
he implemented the suggestions that you have in your report, do 
you think that would solve the culture problem? Or do you 
believe it is simply culture?
    And then the other question is--and you have to really work 
hard to connect these dots--but Los Alamos is less than 30 
square miles. Lawrence Livermore is a mile; Sandia is a bit 
more, maybe. Being such a large, spread-out complex and doing 
so much work there, does that complicate the mission of NNSA?
    Mr. Aloise. Two things. Culture is a problem. It is a 
culture of non-interference, a culture of low regard for 
security. The way I think we need to get at that is through 
improving the oversight at all of these labs, and especially 
Los Alamos.
    Mr. Everett. May I interrupt you just a second? We have had 
oversight after oversight after oversight.
    Mr. Aloise. Oversight at the security--at the site office. 
This is DOE oversight.
    Mr. Everett. Okay, thank you.
    Mr. Aloise. Our report points out that five of the six site 
offices have been understaffed, in terms of their security 
staff. For example, Los Alamos was supposed to have 18 staff. 
It had nine. It didn't have the staffing; it didn't have the 
resources; it didn't have the leadership at all levels.
    The Office of Independent Oversight comes in once every 18 
months or so. The site surveys come in a year or so. That is 
not enough. Because you are fighting this culture out there, 
you need more DOE, NNSA site oversight.
    To get to your second point, and maybe I will let James 
address that, about the size of Los Alamos, you are right. It 
is so big that that is a problem. The blueprint is too large to 
really have a good control over. I mean, they have consolidated 
some weapons material. They have beefed up their security. But 
there is actually a void.
    Mr. Noel. Yes, I think it is a little more subtle than 
that, in that, not only is the site very large, but it is 
spread out, as you know, on these mesas. And the Federal office 
is actually on the other side of a ravine in the town of Los 
Alamos.
    And there is, again, going off what Gene is saying about 
culture, there is been a culture of, ``Hey, we will stay on our 
side of the ravine and let things happen over on the other 
side.'' And that really has to change. I mean, people have to 
go out, they have to kick the tires, they have to knock on the 
doors, they have to see what is going on.
    Mr. Everett. I appreciate you connecting my dots for me.
    Ms. Tauscher. Connecting the ravine.
    Mr. Noel. So that is another culture aspect that has to 
change. And that is true throughout the department. It is not 
just in the NNSA. That is a department-wide culture of, ``You 
know, we hire these contractors. They are the smartest guys in 
the world. We will just kind of let them do their thing.''
    And when it comes to producing a nuclear weapon, no 
question. But when we are talking about management, that is a 
different world.
    Mr. Everett. Thank you, Madam Chairman.
    Ms. Tauscher. I thank the distinguished ranking member.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Madam Chair.
    And I want to join with the chair's comments and 
appreciation for what GAO has done since we passed the NNSA 
Act. Through the special panel that this committee has, GAO has 
been tremendously helpful, and I appreciate y'all's work, as 
well.
    And I apologize. I am going to have to get downstairs for 
another hearing. But let me just ask briefly, you were asked to 
start this in 2004, and you just finished? How come it took so 
long?
    Mr. Aloise. Well, we actually started it in 2005, after we 
staffed up for it. It was a very complex kind of dissection of 
the agency, and we wanted to make sure we took the time 
mounting resources to do it right. We interviewed former 
administrators; we interviewed lots of people connected with 
the complex, reviewed lots of documents, reviewed lots of 
procedures.
    We will take the hit. We should have done it sooner. We 
would have liked to have done it sooner. It was more complex 
than anything else I think James and I have worked on.
    Mr. Thornberry. Really? Well, really why I am asking is I 
got an inference from the secretary that things have changed. 
You know, this started in 2004, 2005. We are a lot better. And 
so what I am really wondering is, those things that I mentioned 
to him, procurement, the information officers, the procedures 
for DOE to approve NNSA things, is that--do you have any reason 
to believe that that is solved now?
    Or are the things that you wrote about in your report still 
true today, to the best of your knowledge?
    Mr. Aloise. Well, there have been improvements, but the 
problems still remain. That is why--I haven't worked on many 
reports that come on with 21 recommendations for improvement. 
And it covers all of those areas you have mentioned.
    Mr. Noel. If I may, you know, that is a frequent thing that 
is said about our reports, because it does take time to do 
something, particularly of this scale. But let me give you a 
couple of examples. In terms of the CIO, if you look at the 
report that the inspector general just wrote about the 
situation at Los Alamos and the thumb drive, I mean, the 
failures were from top to bottom. And one of the failures was 
the CIOs not developing a policy, not working together to get 
that problem done.
    Another example, when we talked earlier about the 
counterintelligence situation, once the act was amended, the 
department contracted with Booz Allen Hamilton to look at how 
they would bring the counterintelligence functions back 
together. This is a report that we just got briefed on 
yesterday. And the findings that Booz Allen Hamilton came up 
with were exactly the same ones that are in our report.
    So Gene is right. I mean, it is a moving situation. It is 
not completely static. But on a couple of very important items, 
you know, the information we have is just as current now.
    Mr. Thornberry. Thank you. Thank you.
    Ms. Tauscher. Mr. Loebsack.
    Mr. Loebsack. Thank you. Just a quick question. You 
mentioned the culture issue. I keep coming back to that, too.
    The Secretary mentioned the culture of arrogance on the 
part of the scientists and others, but you also mentioned that 
there is a culture problem as far as the department is 
concerned, too. Can you elaborate on that a little bit?
    Mr. Aloise. Yes, there is enough blame to go around on both 
sides. NNSA feels they are a separately organized agency, so 
they sometimes feel they don't have to cooperate with the 
department. The department feels like they can and should be 
able to direct NNSA employees.
    So there is still that culture of interpersonal 
relationships that haven't been worked out. Turf battles are 
still going on, that is still being--kind of thing, at 
headquarters and even throughout the complex, that you still 
see that.
    Mr. Noel. And, again, Gene made an earlier remark to this 
culture of least interference. That goes back to the Atomic 
Energy Commission days of, you know, we will hire these very 
brilliant people. We will tell them what we want them to do, 
which is protect the nation, and then, you know, we don't 
really have to do anything else.
    And up to a point, that is a good idea. But as history has 
shown us, that extreme application of that produced some very 
serious environmental insults throughout the complex. And so 
now it is a matter of finding that balance between telling them 
what we want without telling them exactly how to do it, and at 
the same time providing enough effective Federal oversight and 
Federal employees carrying out their fiduciary responsibility 
to make sure the taxpayer gets what they are paying.
    Mr. Loebsack. Is it the case those doing oversight 
sometimes--they simply don't understand the problems, the 
technical problems, also, of those they are supposed to be 
overseeing, so they feel somewhat intimidated perhaps? Or is 
that not a problem?
    Mr. Noel. Well, I think----
    Mr. Loebsack. Just from a knowledge perspective.
    Mr. Noel. If you are talking about the functioning of a 
nuclear weapon, then there is only a limited number of people 
that really understand that. But if you are talking about 
rudimentary management or if you are talking about making sure 
that we know how to keep thumb drives from being put into 
classified computers, that is pretty simple stuff. And so most 
people ought to be able to stay ahead of the curve on that, I 
think.
    Mr. Loebsack. Thank you.
    Ms. Tauscher. Mr. Johnson.
    Mr. Johnson. Yes, Madam Chair. At a time when we have spent 
$384 billion in a quagmire in Iraq that many would argue is not 
really the war on terrorism at its inception, we have had our 
back door open, allowing for the security breaches of our 
nuclear secrets, in part because we don't have enough manpower 
to secure these secrets.
    And I find it spectacularly appalling that we would be in 
this condition at this time, when nuclear terrorism is, indeed, 
a significant threat to the world. And we keep talking about 
culture differences playing a part in this, cultural 
differences between security personnel, if you will, or 
security concerns and then scientific research.
    But to me, it is a no-brainer: Security trumps research, in 
terms of this cultural difference. Has there been anyone who 
has lost their job as a result of a security breach, with 
respect to our nuclear secrets? And, also, has anyone been 
subject to criminal prosecution?
    Mr. Aloise. To be sure, there have been people who have, 
you know, paid a price for that. And maybe James knows more 
about that. But the point about the security, James mentioned 
the ports and drives, and they right now, or they have already, 
epoxied all the ports and some of the lap computers, so that 
people can't stick thumb drives in there.
    That fixes a problem, but it doesn't get at the root cause. 
And the root cause is what we talk about in our report, and 
that is part of the culture, the least interference, low regard 
for security, but also not staffing the security staff 
properly, not training them properly, not giving them the 
resources they need to do the job.
    And on the cybersecurity side, it collapsed from top to 
bottom, in terms of implementation of that program.
    On your specific question about has anybody been fired or 
held accountable, I know there have been. I don't know the 
specifics.
    But, James, do you know?
    Mr. Noel. I don't know the specifics, and I suspect we 
probably couldn't mention people's names or positions in this 
kind of environment anyways.
    Mr. Johnson. Well, I don't see it as rocket science to 
provide security for our nuclear secrets.
    And I am happy, Madam Chair, that this Congress, this 
committee, this subcommittee is now exercising the appropriate 
oversight to make sure that we get that back door closed and 
don't suffer these kinds of losses in the future.
    Thank you.
    Ms. Tauscher. I thank the gentleman's comments. And I will 
tell you that this committee, under current ranking member, 
former Chairman Everett, has, in a bipartisan way, a 
significant commitment to this. And I thank him for his 
energies.
    I just have one final question, Mr. Director. This is just 
really a fabulous document, and I know that you spent such a 
great amount of time.
    Page 67 is the comments from the NNSA. And I find, after 
the dramatic number of recommendations, and the significance 
and the specificity of your recommendations, that this letter 
is not exactly saluting smartly and saying, ``Aye-aye, I will 
do them immediately.''
    If anything, it is a little short on a commitment, and it 
is kind of like, like I said earlier, kicking the can down the 
street, as far as I see, in even recognizing that there are 
this appalling number of recommendations that we have right now 
from you, that I think we now have to take a serious look at on 
how we look to either incorporate them in legislation, whether 
we do it in the Defense Authorization Act, or whether we look 
specifically at the act itself in a separate venue.
    But is this the kind of thing that happens to you all the 
time? Because I would be very frustrated, if I were you.
    Mr. Aloise. In addition to those, they provide some 
technical comments, which we incorporate. I have to tell you, 
we had this discussion, and kind of scratched our heads when we 
looked at this, thinking, well, it is easy to say, but it is 
not going to be easy to do, because, as I mentioned, one of 
them is to determine how NNSA is going to function as a 
separately organized agency.
    I think we will need your help to get these implemented.
    Mr. Noel. One vehicle for that, you know, by law, they are 
required within 60 days to respond to the authorizing and 
appropriating committees with the specifics about what they are 
going to do, so----
    Ms. Tauscher. The clock is running.
    Mr. Noel. Yes, I will look forward, as I am sure you all 
will, to seeing what they say.
    Ms. Tauscher. Mr. Everett, do you have any final comments?
    Mr. Everett. Madam Chairman, I do not. But, in fact, I want 
to be the first to congratulate you on this hearing----
    Ms. Tauscher. Thank you, sir.
    Mr. Everett [continuing]. And for your first hearing as 
chairman of the committee.
    Ms. Tauscher. Thank you, sir.
    Mr. Everett. And I am very pleased with our working 
relationship. I look forward to it continuing.
    Ms. Tauscher. Well, Mr. Everett, you are a distinguished 
Member of Congress, and you are a gentleman. And I am very 
interested in having the kind of partnership that we have. It 
is going to, I think, accrue very well to the national security 
of the American people.
    And I think it is important that everybody understand that 
this is a bipartisan effort that we are working on, that there 
was absolutely no partisanship at all, and we did achieve, I 
think, the kind of comity and respectfulness with certainly the 
Secretary that we wanted to achieve.
    And, once again, thank you very much, Mr. Director, Mr. 
Assistant Director, for your very, very hard work. And we look 
forward to talking to you again soon.
    The hearing is adjourned.
    Mr. Johnson. Madam Chairman?
    Ms. Tauscher. Yes, Mr. Johnson. I apologize.
    Mr. Johnson. Before you adjourn, I want to apologize to 
Ranking Member Everett. I do recall my first subcommittee. It 
was the organizational meeting, and I think, Madam Chair, you 
indicated that I would enjoy serving on this committee because 
it was a very bipartisan committee or subcommittee.
    And in my youthfulness today, I have been kind of fighting 
a lack of oversight on a couple of committees that I serve on, 
and so I got carried away with my comments.
    And actually, Mr. Everett, you are to be commended for the 
way that you have conducted this subcommittee in the past. And 
that is refreshing.
    And so I want to apologize in public for mischaracterizing 
the affairs of this subcommittee.
    Mr. Everett. I thank the gentleman from Georgia who I have 
had a conversation with. There is no apology necessary. I 
appreciate the fact that, as the chairman has said, we have 
very controversial issues here. We don't always agree. But we 
do it in a very bipartisan way, and we try to move. And we have 
had hearing after hearing in the past four years. But I 
appreciate the gentleman's comments.
    Mr. Johnson. Thank you.
    Mr. Everett. And, again, I appreciate the chairman.
    Ms. Tauscher. Thank you, sir.
    Let me just say that I have enjoyed my first hearing, and I 
think I will keep doing this. [Laughter.]
    But let me just, first of all, let me thank our 
subcommittee staff and committee staff, who are professional 
staff members who have come up with some very good and 
interesting ideas and very good support for all of our members.
    And I want to thank them very much, all three that are 
sitting here, that are just really superb professionals. And we 
couldn't do our work without them. And I am sure every member 
here wants to thank their own personal staff, too, for their 
very hard work.
    You know, we are going pretty much at 85,000 feet with our 
hair on fire these days. And it is a very exciting prospect to 
chair this subcommittee, and I am very pleased to have Mr. 
Everett as my partner.
    And this first subcommittee hearing of the Strategic Forces 
Subcommittee for this Congress is adjourned.
    [Whereupon, at 3:09 p.m., the subcommittee was adjourned.]


      
=======================================================================



                            A P P E N D I X

                            January 31, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 31, 2007

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 31, 2007

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 31, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Mr. Secretary, in your prepared testimony you said 
the FY 2000 NNSA Act has ``created a significant obstacle in realizing 
the benefits of functional accountability and sound management between 
the NNSA and the broader Department.''
    Can you give specific examples of such obstacles?
    Secretary Bodman. Notable examples are the statutory prohibition of 
non-NNSA personnel being able, even with personal Secretarial 
authority, to direct or exercise any ``authority, direction or 
control'' over NNSA employees, including those of the weapons 
laboratories that are included as part of the NNSA by the NNSA Act, and 
the related unprecedented limitation of the Secretary's authority to 
delegate his authority to render guidance to NNSA personnel. These 
limitations have impeded the Department's ability to harmonize 
principled differences that inevitably can arise among respective NNSA 
and non-NNSA Departmental elements responsible for common or similar 
functions, such as environmental remediation at active NNSA sites, 
cyber security, physical security, and procurement.
    Ms. Tauscher. Mr. Secretary, in your testimony you point to the 
National Oceanic and Atmospheric Administration (NOAA) as a model for a 
separately organized element of a larger Cabinet-level department, and 
note that it was offered as one model by the PFIAB report.
    Why hasn't the Department patterned the NNSA on the Naval Reactors 
organization, since it is already within the Energy Department, and 
exhibits in many respects precisely the sort of autonomy Congress 
intended for NNSA?
    Secretary Bodman. NOAA does not function under a statutory 
preclusion of Secretarial direction, through delegates or otherwise.
    Prior to the enactment of the NNSA Act (which for the first time 
imposed such restrictions with respect to Naval Reactors) the Naval 
Reactors program functioned quite effectively, and continues to do so. 
Its ability to function semi-autonomously (actually also quite 
independently) is a result of its record of superior performance in 
conducting a program and overseeing a research complex that also are 
quite focused.
    Ms. Tauscher. The GAO report does not recommend any changes to the 
NNSA Act but rather finds that DOE and NNSA need to work together to 
better define working relationships and conflict resolution methods. 
You do not recommend any changes either, but in your prepared testimony 
you are critical of the Act in some fundamental respects.
    Do you agree with GAO's assessment? Why or not?
    Secretary Bodman. The GAO report neglected altogether to address 
the limitations the NNSA Act imposes on the Secretary's authority to 
exercise authority, direction or control of NNSA personnel through non-
NNSA delegates of his own choosing. It is the absence of this customary 
and otherwise uniformly-available authority in executive agencies that 
invites creation of the staff impasses that the GAO report faulted. As 
to the GAO report's observation that NNSA and non-NNSA elements that 
perform common or similar functions should strive to work together, 
that admonition merely replicates guidance from the Deputy Secretary 
and the NNSA Administrator rendered over a year ago. The fact remains 
that the NNSA Act withholds from the Secretary and the Deputy Secretary 
the means to resolve such differences through delegates of their own 
choosing.
    Ms. Tauscher. The Defense Science Board recently recommended that 
the NNSA be reorganized as a ``National Nuclear Weapons Agency'' with 
the Administrator reporting to the President through a board of 
directors that would be chaired by the Secretary of Defense, with the 
Secretary of Energy, Secretary of Homeland Security, and Director of 
National Intelligence also serving on the board. Do you agree with the 
DSB recommendation? Why or why not?
    Secretary Bodman. No, I do not agree with the Defense Science 
Board's recommendation. Making the National Nuclear Security 
Administration (NNSA) into a separate agency reporting to a board of 
directors would make it considerably more difficult to provide the NNSA 
with cabinet-level management, oversight and consultation as well as 
access to departmental assets such as the Department of Energy's Office 
of Health, Safety, and Security which provides invaluable independent 
oversight. The proposed arrangement would also create the need for new 
support organizations to supply services that currently come from the 
Department of Energy.
    In addition, the Secretaries of Energy, Defense, and Homeland 
Security, along with the Director of National Intelligence have 
significant demands on their time and would not likely be able to meet 
frequently so the normal benefit of a board of directors arrangement 
would in reality not add the value intended by the Defense Science 
Board's recommendation. The NNSA's missions are too important to U.S. 
national security to burden it with what would surely be a cumbersome 
management arrangement. We need the right management at NNSA, not 
necessarily a more complicated management structure.
    Ms. Tauscher. You pressed vigorously for consolidation of the NNSA 
and DOE counterintelligence offices. What is your assessment of the 
results of this consolidation? What specific benefits have been 
achieved with regard to identifying, preventing, and addressing threats 
to the complex?
    Secretary Bodman. Consolidation is helping us become more 
streamlined and agile. When the CI analysis program decided recently to 
enhance collection against one country of CI concern to the Department 
implementation moved quickly through a single staff approval process, 
unhindered by competing management priorities. We have also taken some 
very promising steps, in direction of more rapid flow of CI `best 
practices and initiatives' across the complex. For example, the 
Department has identified a need for more uniform application of limits 
to the retention of cyber information across the complex, and initiated 
two cyber pilot projects that will be evaluated for possible complex-
wide application. DOE and NNSA field representatives working together 
have identified the need for more consistent implementation standards 
in areas such as the new CI evaluation process. Further, we are now 
adapting the NNSA CI office's effective performance management 
processes for use in evaluating CI effectiveness at contractor sites 
across the entire DOE complex. Consolidation is opening up 
opportunities for counterintelligence to enhance DOE security by 
introducing new potential for internal information sharing. A key 
example of this is the tracking of suspicious activities across the 
entire DOE complex, something that currently is done by security 
elements on a site-by-site basis. The consolidated CI program is 
compiling and sharing such information from several field locations, 
while evaluating how best to expand that practice and exploit the 
information across the complex.

Background:

    President Bush signed the National Defense Authorization Act that 
consolidated NNSA and DOE counterintelligence offices on October 17, 
2006.
    Ms. Tauscher. You pressed vigorously for consolidation of the NNSA 
and DOE counterintelligence offices. Are there other offices you 
believe should be consolidated? Will the Department propose further 
modifications to the FY 2000 NNSA Act to authorize such consolidation?
    Secretary Bodman. As I indicated during my appearance before the 
Subcommittee, when there are problems that I believe cannot be 
overcome, I will send up legislation as I did with counterintelligence. 
At this time, I do not believe that there are any issues that need to 
be addressed by proposing legislation.
    Ms. Tauscher. Why have the human capital and staffing problems 
within NNSA persisted--whether in the general counsel's office or among 
site office security personnel--despite being identified as a concern 
more than seven years ago?
    Secretary Bodman. I would like to take this opportunity to convey 
Acting Administrator D'Agostino's assessment that clarifies some 
misunderstanding about NNSA's staffing situation. First, let me say 
that NNSA does not have persisting human capital and staffing problems. 
As NNSA reported to the Congress in a November 2004 report on workforce 
restructuring, they have made great strides since its inception in 
March 2000 in rightsizing the enterprise and revitalizing management of 
the federal workforce.
    NNSA has instituted aggressive approaches to recruitment and 
retention to ensure that critical staffing and leadership shortfalls in 
the future are not encountered. NNSA has occasional difficulty in 
filling positions in highly select circumstances, such as at remote 
locations like Los Alamos, New Mexico, or when seeking highly selective 
technical and business skills. Overall, NNSA is not experiencing 
anymore difficulty in attracting and retaining highly qualified 
candidates to fill critical skills positions in nuclear engineering, 
specialized security and Federal contracting than other highly 
technical organizations.
    NNSA has made major innovations and improvements in NNSA's human 
capital management programs the past several years. These innovations 
cover the Administrator's statutory excepted service technical hiring 
authority and a complementary pay-for-performance system; an NNSA-wide 
performance management and recognition system; and various programs of 
monetary incentives relating to recruitment and retention, including a 
student loan repayment program. Two years ago, NNSA instituted a Future 
Leaders Program to hire and develop entry-level technical, project 
management, and business talent. So far, they have attracted 60 
outstanding interns to our workforce, and are planning to recruit a 
third class of 23 more interns this coming June.
    NNSA has streamlined its hiring process, making greater use of 
automation, devising better marketing strategies and recruiting tools, 
and encouraging greater managerial involvement in candidate evaluation 
and selection. They are making maximum use of government-wide 
recruitment incentives. NNSA's excepted service employment and pay-for-
performance system has allowed them to successfully compete with the 
private sector for top technical workers.
    Most recently, NNSA and the Office of Personnel Management are 
designing an NNSA Demonstration Project to modify and waive parts of 
the government's personnel laws and regulations to modify the General 
Schedule position classification and pay systems to establish pay 
bands. The project will test (1) the effectiveness of multi-grade pay 
bands in recruiting, advancing, and retaining employees, and in 
reducing the processing time and paperwork traditionally associated 
with classifying positions, and (2) the effectiveness of basing pay 
increases on meaningful distinctions in levels of performance made 
under a credible, strategically-aligned performance appraisal system, 
thereby improving the results-oriented performance culture in NNSA. The 
long-term goals of the project are to improve hiring by allowing NNSA 
to compete more effectively for high-quality employees through the 
judicious use of higher-entry salaries; motivate and retain staff by 
providing faster pay progression for high-performing employees; improve 
the usefulness and responsiveness of the position classification system 
to managers; eliminate automatic pay increases (i.e., annual 
adjustments that normally take effect the first day of the first pay 
period beginning on or after January 1 each year) by making increases 
performance-sensitive; and to integrate with, build upon, and advance 
the work of several key long-term human capital management improvement 
initiatives and projects currently underway in NNSA.
    Taken together, these initiatives and projects are indicative of a 
healthy, aggressive, and progressive human capital program.
    Ms. Tauscher. Why has NNSA been unable to meet its own targets for 
security officials at the NNSA site offices?
    Secretary Bodman. Despite our efforts over the past several years 
that have placed a high priority on hiring critical skills, security 
personnel are below our desired strength for security professionals at 
both Headquarters and the site offices. Part of our challenge has been 
locating highly qualified security professionals. Competition for these 
skills in the marketplace is intense, and to fill our immediate needs, 
NNSA has mainly recruited retired military personnel to fill vacancies. 
To meet future needs, NNSA has begun to recruit entry level security 
professionals through its Future Leaders Program.
    Ms. Tauscher. The GAO report found various management and staffing 
deficiencies with the NNSA.
    Can you describe the authority of the NNSA budget office, and the 
relationship of that office to the DOE CFO?
    Secretary Bodman. Upon the standup of the NNSA in 2001, it was 
determined that the number of staff and capabilities required for a 
standalone finance and accounting system for the NNSA would require far 
too many personnel and financial resources, and would not be an 
efficient way to work within the DOE management and operating 
contractor system where NNSA executes the majority of its mission 
programs. As such, NNSA uses the finance and accounting capabilities of 
the DOE, and has the same relationship as other Departmental entities 
with the DOE CFO. NNSA is fully integrated into the DOE budget and 
accounting systems and processes.
    The financial aspects of the NNSA are handled through two NNSA 
entities. The Planning, Programming, Budgeting and Evaluation function 
at Headquarters is responsible for all internal NNSA budget processes 
and for integration with the DOE CFO's planning and budgeting 
activities for budget formulation, justification and execution. This 
office has administrative responsibility for all NNSA funds control 
prior to the actual funding allotment, except for Naval Reactors, which 
interfaces separately with the DOE CFO. The Office of Field Financial 
Management is responsible for the actual funding allotment from the 
DOE, and NNSA's financial interface with the M&O contractors and the 
DOE accounting system, and is legally responsible for funds control for 
programs and sites under its allotment.
    Ms. Tauscher. In your view, does the DOE CFO have final authority 
over NNSA funds, including funds specifically appropriated by the 
Congress to the NNSA?
    Secretary Bodman. Yes, the DOE CFO has the authority by way of the 
Headquarters funding allotment and its interface with the OMB and 
Treasury for overall DOE funds control. Once the funds have been 
distributed to NNSA by allotment from the DOE CFO, NNSA (and other 
allottees as well) has the final authority to certify the funds in 
terms of the proper use, availability, and application consistent with 
Congressional intent, Agency policy, and guidance to prevent legal and 
administrative funds violations.
    Ms. Tauscher. Why are NNSA offices such as the General Counsel, 
PPBE and Congressional Affairs much smaller as compared to DOE, when 
NNSA makes up 40 percent of the Department's budget?
    Secretary Bodman. When the NNSA was stood up they made a series of 
corporate ``buy/borrow'' decisions relative to the size of their staff 
organizations. This entailed determining which functions they would 
staff (buy) and the functions they would rely on the Department to 
support (borrow). For example, NNSA budget employees staff positions 
necessary to operate and manage their statutorily mandated five-year 
planning, programming, budgeting and evaluation systems and processes. 
The Department's Office of the Chief Financial Officer handles the 
financial, accounting, and over-all corporate level budget activities. 
This has served all parties well, especially the American taxpayer who 
has been spared the burden of paying for what would have been 
duplicative efforts.
    Ms. Tauscher. The FY 2000 NNSA Act granted substantial authority 
over the nuclear weapons complex to the NNSA but ultimate authority 
remained with the Secretary of Energy. Secretary Bodman, what is the 
nature of the Department's responsibility for security within the 
nuclear weapons complex.
    Secretary Bodman. Congresswoman Tauscher, as Secretary of Energy, I 
am ultimately responsible and accountable for the performance of the 
NNSA. I expect the Administrator to keep me fully informed and to be 
fully accountable for the performance of all NNSA programs, facilities 
and employees. I expect the Administrator (and the NNSA) to be fully 
responsive to Departmental requirements and expectations.
    Through the Office of Health, Safety and Security (HSS), I 
establish Departmental environment, safety, health and security policy 
which applies to all elements, including NNSA. All Departmental 
elements are required to conform to those policies as their terms 
specify. I also rely upon HSS to conduct corporate independent 
oversight of all safety and security disciplines and I have the 
expectation that NNSA responds to those findings with effective 
correction actions to eliminate any identified weaknesses. HSS also 
conducts enforcement investigations for safety and security violations 
throughout the DOE, including within the NNSA. HSS undertakes 
enforcement actions against non-NNSA entities, and recommends 
enforcement sanctions and works with NNSA to undertake enforcement 
actions against its contractors.
    Under the Department of Energy's ``Government Owned--Contractor 
Operated'' (GOCO) model the Department is responsible for establishing 
the overarching security requirements that must be followed and 
conducting periodic inspections to assess compliance against those 
standards. Contractor organizations implement the security program 
according to Departmental or NNSA standards and guidance. NNSA's Office 
of Defense Nuclear Security (DNS) is responsible for the overall 
management and oversight of the field security program across the 
nuclear weapons complex. DNS establishes the strategic performance 
goals, develops complex-wide funding needs, and provides the security 
budget required by the contractors to operate their respective security 
programs. DNS, working through the Federal Site Office security staff, 
is also responsible for providing performance assessment of the 
contractor security programs, ensuring corrective action is taken and 
promoting cross-complex sharing of best practices and lessons learned.
    The authority to grant security clearances under the Atomic Energy 
Act was not transferred to the NNSA under the NNSA Act. HSS is 
responsible for the investigation process, although NNSA officials 
evaluate with respect to NNSA personnel the results of those 
investigations and determine whether a clearance is appropriate.
    Cyber security is part of the NNSA Chief Information Officer's 
responsibility, separate from the management of physical security and 
generally follows the same processes as those described above for other 
security programs.
    Ms. Tauscher. With respect to adherence to security practices, what 
are the shortcomings of the Management and Operating Contractor?
    Secretary Bodman. Los Alamos National Laboratory's (LANL) volume of 
classified holdings is unnecessarily large, conducted in too many 
security areas, involves too many people, and is spread out over too 
large of an area. Within the LANL model it is the line/program 
organizations that establish and operate vault type rooms, cyber 
networks, and other classified work areas, rather than security 
professionals. There is a lack of operational formality and a failure 
to employ strict conduct of operations in established classified work 
areas. There is also a lack of communication between the contractor and 
site office staff on cyber security implementation. Additionally, LANL 
security staff is stove-piped, does not have integrated operational 
oversight mechanisms, and the self-assessment program does not reach 
deeply into the organization.
    Ms. Tauscher. What are the shortcomings of the federal workforce, 
both Department-wide, and NNSA specific?
    Secretary Bodman. The GAO recently commented on the staffing and 
skill shortfalls of the NNSA professional security workforce. I 
generally agree with this assessment and intend to conduct a near term 
review of the number of security professionals within NNSA, both at 
Headquarters and in the field. I also intend to improve the training 
and qualification requirements of Federal security personnel. Both of 
these actions will be completed by the end of Fiscal Year 2007.
    Additionally, NNSA has just completed a detailed workforce planning 
and succession analysis and will use the results to make adjustments in 
workforce staffing to address the ever increasing workload in 
fundamental security programs and in contractor oversight expectations.
    Ms. Tauscher. What do you see as the Department's role in 
establishing and maintaining both a proper cyber security policy and 
posture in the nuclear weapons complex?
    Secretary Bodman. I have tasked the DOE CIO, Tom Pyke, with the 
responsibility of developing cyber security policies for the 
Department. I have signed the order that delegates the responsibility 
for implementing these policies to the Under Secretaries, which 
includes the Administrator of the NNSA.
    I understand there is a highly productive working relationship 
between DOE and NNSA cyber security management. This approach has 
proven very effective in expediting the development of many of the new 
and updated cyber security policies and their implementation to improve 
the cyber security posture of the Nuclear Weapons Complex.
    Ms. Tauscher. How do you assess the Department's effectiveness in 
working with NNSA in the cyber security area?
    Secretary Bodman. The working relationship between the respective 
DOE and NNSA Chief Information Officers is a highly productive, 
collaborative partnership in managing cyber security. The Department 
and NNSA share the same goals for cyber security and have a successful 
partnership in developing and implementing polices. As DOE policies are 
developed, this partnership ensures that NNSA requirements are 
considered in developing these new policies and that the NNSA can 
implement these policies to meet its specific needs.
    Ms. Tauscher. In creating NNSA, the Congress intended for the new 
agency to have substantial autonomy in executing the policies 
established by the Secretary of Energy, including substantial autonomy 
over budget execution. However, as the GAO report confirms, the NNSA 
and DOE budget offices have not clearly defined their roles, and there 
has plainly been interference by the Department on NNSA budget 
execution.
    What is the value added by Departmental offices in execution of 
NNSA's programs and budget affairs?
    Secretary Bodman. There is value added in terms of ``checks and 
balances'' in the DOE CFO certifying funds availability for external 
transactions such as appropriation transfers or congressional 
reprogrammings. These are discrete transactions that occur on an as-
needed basis--five to fifteen times annually.
    Ms. Tauscher. This Committee, and the House, felt strongly enough 
about NNSA having authority to execute its own budget that the House-
passed version of the FY 2005 National Defense Authorization Act, we 
included a provision that would have required that NNSA reprogramming 
requests come straight to the defense committees in Congress, without 
review by the DOE CFO.
    What is the value added by having the DOE CFO review NNSA 
reprogramming requests?
    Secretary Bodman. There is value added in terms of ``checks and 
balances'' in the DOE CFO certifying that NNSA funds are available and 
put into reserve in the DOE financial system before requesting external 
transactions such as appropriation transfers or congressional 
reprogrammings. These are discrete transactions that occur on an as-
needed basis--five to fifteen times annually.
    There is no value in the CFO performing a programmatic review of 
the NNSA programmatic decisions that led to the requirement for the 
financial transaction, and little value in editorial review of the 
correspondence itself.
    Ms. Tauscher. Does the FY 2000 NNSA Act allow DOE officials below 
the level of the Deputy Secretary to exercise authority over NNSA 
officials?
    Secretary Bodman. The NNSA Act (Public Law 106-65, as amended) does 
not allow DOE officials to exercise authority over NNSA officials.
    Section 3220 of the NNSA Act contains a general prohibition against 
non-NNSA Departmental employees (other than the Secretary or Deputy 
Secretary acting through the Administrator) exercising ``authority, 
direction and control'' over NNSA's employees and contractors. However, 
Section 3220 was amended in 2006 to provide that NNSA employees are 
subject to the authority, direction and control of the Secretary acting 
through the Director of the Office of Intelligence or the Office of 
Counterintelligence with respect to intelligence and 
counterintelligence activities.
    NNSA employees are responsible to, and subject to the authority of, 
the Secretary and the Deputy Secretary ``acting through the 
Administrator.'' NNSA employees may receive direction from the 
Secretary and Deputy Secretary through the Administrator, and are 
responsible to the Secretary, Deputy Secretary and Administrator for 
carrying out the tasks they have been directed to perform.
    In addition, the Secretary and his staff may direct officials of 
the Department who are not within the NNSA to review the programs and 
activities of the Administration and to make recommendations to the 
Secretary regarding NNSA's conduct of those programs and activities, 
including consistency with similar programs and activities conducted by 
other programs within the Department. To facilitate such oversight, DOE 
employees may request information from NNSA employees, and NNSA 
employees must provide the information requested expeditiously.
    Ms. Tauscher. The GAO report identifies several areas of business 
operations/interfaces between the Department and NNSA that require 
improvement.
    Can these improvements be made under the existing NNSA Act 
legislation or is a legislative remedy required to enhance and improve 
the relationship between the Department and NNSA?
    Mr. Aloise. We do not believe that legislative change is necessary 
to produce an organization that can provide effective federal oversight 
of the nation's nuclear weapons complex. All of GAO's recommendations 
can be implemented under the existing NNSA Act.
    Ms. Tauscher. Given the difficulties in establishing the NNSA as a 
semi-autonomous agency within DOE, can you elaborate on why GAO 
disagrees with calls for a wholly independent NNSA?
    Mr. Aloise. We do not support amending the NNSA Act to create an 
independent NNSA because we do not believe that the NNSA Act has been 
given a real chance to work. As we document in our report, the 
Secretary of Energy at the time of NNSA's creation vigorously opposed 
the creation of the Administration. Consequently, DOE's Implementation 
Plan for the establishment of NNSA never identified how the two 
organizations would work together. In this environment, we found a 
patchwork of often dysfunctional relationships between NNSA and its 
counterparts in DOE. More recently, in his statement before the 
Subcommittee, the current Secretary of Energy expressed reservations 
about the NNSA Act, potentially undermining any attempts to make the 
act work. Finally, it is important to recognize that there is no 
perfect organizational structure. In our view, changing structures now 
would only cause more time to be spent reorganizing and realigning, 
taking time away from the important task of ensuring that our nation's 
nuclear programs are managed effectively and efficiently.
    Ms. Tauscher. How critical are the management recommendations you 
make to the successful execution of such major initiatives as the 
Department's Complex 2030 plans and Reliable Replacement Warhead 
program? What are the risks to these initiatives if your 
recommendations are not implemented?
    Mr. Aloise. Over the last several years we have documented 
significant project and program management weaknesses associated with 
NNSA's largest efforts including the National Ignition Facility (NIF) 
project, the Stockpile Life Extension Program (SLEP), and NNSA's 
program for developing a process for certifying that the stockpile is 
safe and reliable, known as the Quantification of Margins and 
Uncertainty (QMU).\1\ These weaknesses resulted in major cost increases 
and schedule slippages.
---------------------------------------------------------------------------
    \1\ See, for example, National Ignition Facility: Management and 
Oversight Failures Caused Major Cost Overruns and Schedule Delays, GAO/
RCED-00-271 (Washington, D.C.: Aug. 8, 2000); Nuclear Weapons: 
Opportunities Exist to Improve the Budgeting, Cost-Accounting, and 
Management Associated with the Stockpile Life Extension Program, GAO-
03-583 (Washington, D.C.: July 28, 2003) and Nuclear Weapons: NNSA 
Needs to Refine and More Effectively Manage Its New Approach for 
Assessing and Certifying Nuclear Weapons, GAO-06-261 (Washington, D.C.: 
Feb. 3, 2006).
---------------------------------------------------------------------------
    While NNSA has addressed some of our past findings, our January 
2007 report for the Subcommittee found that additional effort will be 
needed to address the project and program management weaknesses that 
still exist at NNSA. Because the Reliable Replacement Warhead (RRW) and 
transformation of the complex represent a project and a program that 
vastly exceed the scale of the NIF and SLEP efforts, we believe that it 
is vital to improve project and program management in order to avoid 
the cost and schedule overruns that have characterized past NNSA 
efforts.
    Ms. Tauscher. The Defense Science Board recently recommended that 
the NNSA be reorganized as a ``National Nuclear Weapons Agency'' with 
the administrator reporting to the President through a board of 
directors that would be chaired by the Secretary of Defense, with the 
Secretary of Energy, Secretary of Homeland Security, and Director of 
National Intelligence also serving on the board.
    What are GAO's views on the Defense Science Board's recommendation 
to remove NNSA from DOE and establish it as a separate agency?
    Mr. Aloise. We reviewed the Board's recommendation as part of our 
work and met with the Chairman of the Board to discuss its proposal. We 
did not find any evidence that convinced us that implementing the 
proposed reorganization would necessarily improve the security or 
management weaknesses we identified. Moreover, as we noted above, such 
a large-scale reorganization would distract NNSA, or its successor, 
from addressing the root causes of its management problems which 
involve not having the right people, with the right skills, in the 
right places to provide effective federal security and management 
oversight of NNSA's contractors.
    Ms. Tauscher. In its technical comments on your report, DOE's 
Office of General Counsel indicates that it believes that the NNSA 
Act's prohibitions on ``authority, direction and control'' have 
prevented DOE and NNSA from better defining their working relationship.
    Do you agree with that view?
    Mr. Aloise. As discussed in our report, within the construct of the 
NNSA Act, several offices within DOE and NNSA have attempted to develop 
policies and agreements on how they will interact. While some of these 
policies and agreements were adopted, their adoption has not guaranteed 
good working relationships. Instead, because the officials in the 
involved offices have not followed the policies and/or have not 
communicated with each other effectively, organizational conflict has 
resulted. This outcome is not the result of the NNSA Act, but rather is 
the result of the actions of NNSA and DOE officials.
    Ms. Tauscher. The 1999 report of the President's Foreign 
Intelligence Advisory Board (PFIAB) described a DOE management of the 
nuclear weapons complex as a ``dysfunctional bureaucracy'' that 
embodied ``science at its best and security at its worst.''
    To what extent do you believe that NNSA has addressed the problems 
identified in the PFIAB report that led to its creation?
    Mr. Aloise. As we stated in our report to the Subcommittee, we 
believe that NNSA has made some progress in addressing the findings of 
the PFIAB report. Specifically, NNSA has streamlined its organization 
and improved the lines of authority and accountability. It has also 
implemented an improved financial management system through its 
Planning, Programming, Budgeting and Evaluation (PPBE) process. 
Moreover, in response to the revised Design Basis Threat, NNSA sites 
have made significant improvements in how they physically protect 
weapons grade material. Nevertheless, as we document in our report, 
significant weaknesses remain in NNSA's security and management 
programs, particularly with respect to cyber security.
    Ms. Tauscher. As the Secretary testified, many of the security 
breaches that have occurred in the nuclear weapons complex have 
occurred at Los Alamos National Lab.
    What should be done differently by the following entities to 
improve the security posture at the Los Alamos National Laboratory?
    (1) Management and Operating Contractor?
    (2) NNSA?
    (3) Department of Energy?
    Mr. Aloise. We did not directly study the security activities of 
the Management and Operating (M&O) contractor as part of our work for 
the Subcommittee. However, we would note that the DOE Inspector 
General's recent Special Inquiry on cyber security at Los Alamos 
National Laboratory (LANL) found weaknesses throughout the lab's 
security program ranging from developing and implementing security 
policy through ensuring adequate internal controls over persons 
handling classified information.\2\
---------------------------------------------------------------------------
    \2\ DOE, Office of the Inspector General, Special Inquiry on 
``Selected Controls over Classified Information at the Los Alamos 
National Laboratory'', (Washington, D.C.: Nov. 27, 2006).
---------------------------------------------------------------------------
    Regarding NNSA, the key action NNSA needs to take to improve 
security at LANL is to have an adequate and effective security staff at 
the Los Alamos Site Office (LASO). However, as we documented in our 
report to the Subcommittee, LASO has consistently not had sufficient 
staff, with up-to-date training to provide effective oversight to 
ensure that LANL meets its obligations under DOE's security orders.
    Turning to the Department of Energy, DOE needs to ensure that the 
Office of Independent Oversight in DOE's Office of Health, Safety and 
Security provides comprehensive periodic oversight of both the NNSA and 
the LANL security programs. While the Office of Independent Oversight 
has reviewed LANL frequently regarding physical security improvements 
in the wake of September 11, the DOE Office of Inspector General's 
recent report on cyber security failures at LANL determined that one of 
the causes of the problems had been infrequent inspections by the 
Office of Independent Oversight.
    Ms. Tauscher. Cyber security policy has been identified as an area 
of weakness by a number of review panels, including your report.
    What do you see as the Department's role in establishing and 
maintaining both a proper cyber security policy and posture in the 
nuclear weapons complex?
    Mr. Aloise. Under the construct of the NNSA Act, it is the 
Department's responsibility to establish policy--such as in the area of 
cyber security--and NNSA's responsibility to implement that policy 
effectively. In response to a cyber attack in 2005 that successfully 
penetrated and removed detailed personnel information on more than 
1,500 employees, DOE's Office of Chief Information Officer (CIO) issued 
a February 2006 Revitalization Plan to systematically upgrade DOE's 
cyber security posture over a 12-month period. In light of the most 
recent failures at LANL, in our view, it remains an open question 
whether this plan has been effectively implemented. While we did not 
address the Revitalization Plan as part of our work for the 
Subcommittee, we have recently been asked to do so by the House 
Committee on Energy and Commerce.
    Ms. Tauscher. How do you assess the Department's effectiveness in 
working with NNSA in the cyber security area?
    Mr. Aloise. In our report to the Subcommittee, we identified 
difficult working relationships between the NNSA CIO and the DOE CIO as 
an example of where organizational conflict has resulted. Since both 
offices have a major influence on the effectiveness of NNSA's 
implementation of DOE's cyber security polices, we would expect that 
this lack of effective working relationships has reduced NNSA's 
effectiveness in the cyber security area.
    Ms. Tauscher. Your report lays out 21 recommendations to improve 
the operation of NNSA.
    How do the management problems you found at NNSA compare with the 
rest of DOE?
    Mr. Aloise. Unfortunately, many of the same problems with cost and 
schedule slippage we see on NNSA's major projects also occur throughout 
the Department. The root causes are also the same--weak project and 
program management and oversight.\3\
---------------------------------------------------------------------------
    \3\ See, for example, Hanford Waste Treatment Plant: Contractor and 
DOE Management Problems Have Led to Higher Costs, Construction Delays, 
and Safety Concerns, GAO-06-602T (Washington, D.C.: April 6, 2006) and 
Nuclear Waste: Absence of Key Management Reforms on Hanford's Cleanup 
Project Adds to Challenges of Achieving Cost and Schedule Goals, GAO-
04-611, (Washington, D.C.: June 9, 2004).
---------------------------------------------------------------------------
    Ms. Tauscher. Do you believe that if the Department of Energy (DOE) 
and NNSA implement your recommendations NNSA will become a more 
effective agency?
    Mr. Aloise. Our recommendations were intended to provide a 
targeted, but comprehensive solution to the major organizational; 
security; and project, program and financial management weaknesses at 
NNSA. If fully implemented, we believe our recommendations will result 
in more effective oversight of the nation's nuclear weapons programs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. For more than 30 years, the International Nuclear 
Analysis (INA) program has provided the U.S. government with 
information and analysis to support various non-proliferation and 
intelligence efforts. This program has tracked the flow and modeled the 
use of nuclear materials throughout the world, and is considered by 
many users to be a critically important tool in monitoring materials 
that could be used by terrorist, including some 200,000 tons of spent 
nuclear fuel and 200,000 tons of plutonium. The National Nuclear 
Security Administration (NNSA) abruptly terminated funds for this 
program for fiscal year 2007 stating they will replace it with 
alternative freely available information. It is my understanding that 
many of the ``freely available'' databases do not have the detail or 
the most up-to-date information that is necessary in today's volatile 
non-proliferation arena. There is strong concern that termination of 
INA will break the uninterrupted chain of materials monitoring in raise 
the prospect that the validity and reliability of the program will be 
lost.
    Please provide a detail plan on how the Department non-
proliferation intelligence program would be projected to replace the 
capabilities and resources that INA currently provides. Please identify 
the number of Department personnel who would take the INA 
responsibility, and the allocated cost of their time and required 
support.
    Secretary Bodman. The Department of Energy (DOE) has been relying 
on public and internal nuclear related databases to provide DOE program 
managers and staff with valuable unclassified and classified 
information on the status and direction of nuclear and radiological 
activities around the world for many decades. While the attached list 
is by no means comprehensive it does illustrate the breath of data 
available from existing databases other than INA. These databases 
provide a more comprehensive overview of nuclear and radiological 
facilities and materials of national security and non-proliferation 
interest than is available from the INA database. The information in 
these databases is timely, accurate, comprehensive, and more directly 
valuable to DOE programs than the INA database. Data is verified to 
ensure integrity by the IAEA and the Department's laboratories and 
programs. Furthermore, the information in these databases is available 
to DOE programs on a need to know basis at little or no extra cost to 
DOE because the tracking of this information is a fundamental element 
of each programs day-to-day mission to implement their program. These 
databases include:
------------------------------------------------------------------------
                                                       Classification of
            Database                    Source               Data
------------------------------------------------------------------------
Power Reactor Information        International        Unclassified
System                            Atomic
                                 Energy Agency
------------------------------------------------------------------------
Research Reactor Database        International        Unclassified
                                  Atomic
                                 Energy Agency
------------------------------------------------------------------------
International Nuclear            International        Unclassified
Information System                Atomic
                                 Energy Agency
------------------------------------------------------------------------
Foreign Fissile Material Data    Idaho National       Unclassified
Inventory                         Laboratory
------------------------------------------------------------------------
Nuclear Fuel Supply and Price    Department of        Unclassified
Report                            Energy
                                 (NE-1)
------------------------------------------------------------------------
Kazakhstan Spent Fuel            DOE/NA-21            OUO/FGI
Disposition
------------------------------------------------------------------------
Russian Research Reactor Fuel    NA-21                Official Use Only
Return
------------------------------------------------------------------------
Reduced Enrichment for Research  NA-21                Official Use Only
and Test Reactors
------------------------------------------------------------------------

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Please identify and explain what the ``freely 
available'' sources for this information will be, and provide the 
justification that this activity will be as timely, accurate, and 
comprehensive as the information that INA has provided to date. I am 
particularly concerned about how this open source information will be 
verified to ensure it is not being manipulated by any entity which 
would wish to hide the diversion of dangerous nuclear material.
    Secretary Bodman. The Department of Energy (DOE) has been relying 
on public and internal nuclear related databases to provide DOE program 
managers and staff with valuable unclassified and classified 
information on the status and direction of nuclear and radiological 
activities around the world for many decades. While the attached list 
is by no means comprehensive it does illustrate the breath of data 
available from existing databases other than INA. These databases 
provide a more comprehensive overview of nuclear and radiological 
facilities and materials of national security and non-proliferation 
interest than is available from the INA database. The information in 
these databases is timely, accurate, comprehensive, and more directly 
valuable to DOE programs than the INA database. Data is verified to 
ensure integrity by the IAEA and the Department's laboratories and 
programs. Furthermore, the information in these databases is available 
to DOE programs on a need to know basis at little or no extra cost to 
DOE because the tracking of this information is a fundamental element 
of each programs day-to-day mission to implement their program. These 
databases include:
------------------------------------------------------------------------
                                                       Classification of
            Database                    Source               Data
------------------------------------------------------------------------
Power Reactor Information        International        Unclassified
System                            Atomic
                                 Energy Agency
------------------------------------------------------------------------
Research Reactor Database        International        Unclassified
                                  Atomic
                                 Energy Agency
------------------------------------------------------------------------
International Nuclear            International        Unclassified
Information System                Atomic
                                 Energy Agency
------------------------------------------------------------------------
Foreign Fissile Material Data    Idaho National       Unclassified
Inventory                         Laboratory
------------------------------------------------------------------------
Nuclear Fuel Supply and Price    Department of        Unclassified
Report                            Energy
                                 (NE-1)
------------------------------------------------------------------------
Kazakhstan Spent Fuel            DOE/NA-21            OUO/FGI
Disposition
------------------------------------------------------------------------
Russian Research Reactor Fuel    NA-21                Official Use Only
Return
------------------------------------------------------------------------
Reduced Enrichment for Research  NA-21                Official Use Only
and Test Reactors
------------------------------------------------------------------------

                                  <all>

</pre></body></html>
